THE DRUG ENFORCEMENT ADMINISTRATION’S
     USE OF INTELLIGENCE ANALYSTS

         U.S. Department of Justice
       Office of the Inspector General
                Audit Division

            Audit Report 08-23
                May 2008
   THE DRUG ENFORCEMENT ADMINISTRATION’S USE OF
               INTELLIGENCE ANALYSTS

                            EXECUTIVE SUMMARY

       The gathering and use of intelligence is an important element in the
Drug Enforcement Administration’s (DEA) efforts to identify and disrupt
illegal drug trafficking. Accurate and up-to-date intelligence is needed to
assess the operations and vulnerabilities of criminal drug networks, to
systematically interdict illegal contraband, and to evaluate the impact of
illegal drug activities. Intelligence is also needed to identify new methods of
illegal drug trafficking and to establish long-range enforcement strategies.
DEA management also uses intelligence for operational decision-making,
resource deployment, and policy planning. The DEA also shares information
and expertise with other members of the intelligence community, as well as
other federal, state, and local law enforcement agencies, to help identify and
disrupt illegal drug trafficking.

      The collection of drug related information is primarily the responsibility
of DEA’s Special Agents, while the collation and analysis of this information
for the purpose of producing and disseminating meaningful intelligence is
primarily the responsibility of the DEA Intelligence Program. The DEA
employs intelligence research specialists, also known as intelligence
analysts, to produce intelligence from drug related information collected
from various sources.1 The number of DEA intelligence analysts has grown
from 11 since the DEA’s inception in 1973 to 710 stationed around the world
as of March 15, 2008.

       DEA intelligence analysts synthesize information on illicit drug
trafficking from a variety of sources, including DEA investigations, seized
documents, surveillance reports, informants, confidential sources, and court-
ordered wiretaps. Intelligence analysts assess and summarize this
information and provide it to DEA Special Agents; supervisory DEA
personnel; United States Attorneys; grand juries; federal, state, local, and
foreign law enforcement agencies; and other intelligence agencies. In
addition to its intelligence analysts, the DEA currently has four contract
reports officers working in the DEA Policy and Liaison Section. Reports
officers review incoming DEA reports of investigation that have a foreign
nexus and develop reports, known as reports officer cables, for the
intelligence community.

       1
          Because the term “intelligence analyst” is commonly used within the DEA, the
Federal Bureau of Investigation (FBI), and the intelligence community, we have also used it
in this report to refer to intelligence research specialists.
OIG Audit Approach

       The Department of Justice (DOJ) Office of the Inspector General (OIG)
conducted this audit to assess: (1) how effectively the DEA recruits, trains,
and retains its intelligence analysts, and (2) the quality, usefulness, and
effectiveness of the intelligence reports and related products produced by
intelligence analysts and reports officers.

       During this audit, we interviewed officials from the DEA’s Intelligence
Division, Office of National Security Intelligence, Human Resources Division,
Office of Finance, Office of Inspections at DEA headquarters, and the Office
of Training at the DEA Training Academy. In addition, we interviewed DEA
intelligence analysts, Special Agents, group supervisors, field intelligence
managers, Special Agents-in-Charge (SACs), and Assistant SACs. We
performed audit work at the El Paso Intelligence Center and in DEA field
offices in Dallas, Houston, Los Angeles, Miami, San Diego, and New York
City. We also interviewed officials from intelligence community agencies
that use the DEA’s intelligence products. Those agencies included the
Central Intelligence Agency (CIA), the Department of State, the Defense
Intelligence Agency (DIA), and the Office of the Director of National
Intelligence (ODNI).

       We developed two survey questionnaires that were sent to 675 DEA
intelligence analysts and 4,843 DEA Special Agents. The survey
questionnaire for intelligence analysts contained 69 questions designed to
gather information regarding their education and work background, job
satisfaction, and perceptions of their role in fulfilling the DEA’s mission. We
received 487 responses (72 percent) to this survey. The survey
questionnaire for Special Agents contained 14 questions designed to
ascertain their views on the effectiveness of intelligence analysts and their
products. We received 1,700 responses (35 percent) to the Special Agent
survey.

      In addition, we reviewed and analyzed DEA intelligence reports, closed
case files, and other documents regarding the work of intelligence analysts.

OIG Results in Brief

       During this audit, we evaluated DEA’s recruiting and hiring, training,
and retention of intelligence analysts. We also tested DEA compliance with
DOJ Employment Security Regulations and the timeliness and quality of DEA
intelligence products. We had findings in each of these areas.

     Specifically, we determined that for fiscal years (FY) 2004 through
2007, the DEA’s onboard number of intelligence analysts increased by


                                      - ii -
8 percent. However, the DEA’s allocated staffing level for intelligence
analysts had increased by 15 percent over the same time period.2 As a
result, as of September 2007, the DEA had 138 fewer intelligence analysts
onboard than the number of intelligence analysts allocated by the DEA, and
22 fewer intelligence analysts than the DEA’s stated hiring goal. According
to the DEA’s Chief Financial Officer (CFO), the reasons for not being able to
hire additional intelligence analysts was because, for FYs 2004 through
2007, the DEA absorbed $210 million in unfunded salary increases,
congressionally mandated rescissions, streamlining initiatives that did not
save money, and new Administration mandates.

       The DEA has maintained a pool of pre-screened intelligence analyst
applicants from which it can hire when positions are approved. As of
September 2007, the hiring pool of applicants had declined from 268 to 95.
We are concerned that the DEA does not currently have enough applicants in
the pool to meet its current needs. The DEA plans to hire approximately 80
intelligence analysts in FY 2008 to replace intelligence analysts who retired,
quit, or transferred, and new hires for the Diversion Control Program. In
addition, the DEA plans to replace the intelligence analysts who transferred
into the Diversion Control Program from other duties.3 However, the DEA
estimates that for every intelligence analyst it hires, it needs three
applicants in the hiring pool. Using this ratio, the DEA would need about
240 applicants in the intelligence analyst hiring pool.

       The DEA has implemented a combination of training for intelligence
analysts, including Basic Intelligence Research Specialists training, Advanced
Intelligence Training, a mentoring program, and specific training tailored to
individual needs. We reviewed analysts’ evaluations of the basic training,
which generally indicated a high satisfaction level. However, several
intelligence analysts and supervisors we interviewed at field offices believe




       2
          According to the DEA CFO, allocated positions are those the DEA has allocated to
individual offices, based on congressionally authorized levels. The database where
information about allocated positions is maintained is called the Table of Organization, which
shows where DEA’s congressionally authorized positions have been allocated, by office
location. Historically, all of the authorized positions the DEA had were allocated to office
locations. However, in recent years, a small number of the authorized positions were not
allocated in order for those positions to be held at DEA headquarters to quickly meet
emerging needs for personnel.
       3
          The Diversion Control Fee Account funds the Diversion Control Program through
registration and application fees relating to the manufacture, distribution, and dispensing of
controlled substances and chemicals. The Diversion Control Program seeks to prevent,
detect, and investigate the redirection of controlled pharmaceuticals from legitimate
channels.


                                            - iii -
that the new 14-week BIRS training would be too long.4 They believe that
some of the courses are not related to the core work of an intelligence
analyst. We share the concern that the expanded Basic Intelligence
Research Specialists training program includes training that could be better
provided through other means, such as web-based training or training at an
intelligence analyst’s assigned location.

       We found that the DEA’s intelligence analyst workforce has a low
attrition rate, ranging from 3.5 percent to 2.6 percent between FYs 2004 and
2007. This compares favorably to the attrition rate for intelligence analysts
at other agencies, such as that of the FBI where the attrition rate ranged
from 9.5 to 4 percent between FYs 2004 and 2007.

       In our survey, we asked DEA intelligence analysts several questions
designed to gauge job satisfaction. Overall, their responses indicated their
job satisfaction to be good. For the 487 intelligence analysts who
responded, 64 percent said they found their work intellectually challenging
and 77 percent rated their contribution to the DEA’s mission as somewhat to
very high. Our survey also asked intelligence analysts to report the
likelihood they will remain with the DEA for the next 5 years. Of the 487
intelligence analysts who responded to our survey, 395 (81 percent) stated
that they plan on staying with the DEA for the next 5 years. This also
compares favorably to similar questions we asked of FBI intelligence
analysts. In a May 2005 survey we conducted in the FBI, 64 percent of
intelligence analysts responded that they planned on staying with the FBI for
5 years.

       With respect to security clearances, the DEA has designated all
intelligence analyst positions as “special sensitive.” Special sensitive
positions within the DOJ are those positions that involve the highest degree
of trust and require access, or afford ready opportunity to gain access, to
Top Secret National Security Information and material as described in
Executive Order 12356. Therefore, according to the DEA Deputy Chief of
Intelligence, DEA intelligence analysts require Top Secret security
clearances.

      DOJ Employment Security Regulations require that a Special
Background Investigation be completed for employees occupying special
sensitive positions.5 These employees are also required to undergo a
reinvestigation 5 years after their appointment and at least once each
succeeding 5 years.
      4
         From 1974 to 2001, the BIRS training program ranged from 2 to 10 weeks in
length. From 2002 to 2006, the course was 9 weeks. However, as of July 2007 the course
was expanded to 14 weeks.
      5
          DOJ Order 2610.2A, Employment Security Regulations, §7.d


                                         - iv -
      Our audit found that the DEA did not have documentation
demonstrating that all intelligence analysts had either a Top Secret security
clearance or a reinvestigation within the last 5 years. As of September 30,
2007, we determined that 82 of 699 intelligence analysts did not have Top
Secret clearances or a reinvestigation within the last 5 years, including 19
who had Secret instead of Top Secret clearances, 62 who had Top Secret
clearances but did not have a reinvestigation within the last 5 years, and 1
with no clearance.

       We also assessed the quality, usefulness, and effectiveness of
intelligence analysts’ work. Our surveys and interviews indicated that both
internal and external users generally were satisfied with DEA intelligence
analysts’ work.

       However, some Special Agents we surveyed raised concerns related to
how intelligence analysts were utilized and their excessive caseloads, as well
as the timeliness of the information received. For example, some Special
Agents stated that intelligence analysts did not conduct enough analysis,
focused too much on data entry, lacked knowledge to produce useful
intelligence, provided intelligence that the Special Agents could obtain on
their own, or did not provide timely intelligence. In addition, some Special
Agents suggested that intelligence analysts could not perform their work in a
satisfactory manner because of case overload. However, none of the
intelligence analysts we interviewed in field offices indicated that they were
overwhelmed by their workload.

       We also found significant delays in the issuance of intelligence reports.
Prior to dissemination of its intelligence reports, the DEA performs a lengthy
review to ensure the accuracy of the information. We tested 16 strategic
reports and found they were published on average about 21 months after
the source information was first observed by the DEA.

      The DEA’s four reports officers review DEA investigative reports that
have a foreign nexus and develop cables that contain intelligence
information for dissemination outside the DEA. The DEA Chief of Intelligence
told us that when reports officers receive information related to terrorism,
weapons, or a foreign country’s military, the cable must be prepared and
disseminated to the intelligence community within 24 to 48 hours of receipt.
Of the 4,500 cables prepared since June 2004, we tested 81 cables for
timeliness of dissemination. Our testing showed that cables are transmitted
on average 34 days from the date the original information was received by
the DEA. Three of the 81 cables we tested were related to terrorism and
met the criteria for expedited processing. However, these 3 cables were not
transmitted until 39, 44, and 76 days after initial receipt of the information.



                                      -v-
       We interviewed representatives from four external intelligence
community organizations that use DEA strategic intelligence reports and
reports officer cables: the CIA, the Department of State, the Defense
Intelligence Agency, and the Office of the Director of National Intelligence.
The representatives from all four organizations reported that they believe
the DEA information they receive is invaluable. These users also told us that
the DEA’s intelligence reports are logical, of good quality, and are useful to
analyze threats and opportunities. They stated that because DEA agents are
on the street identifying connections between drugs and crime, the
intelligence provided by DEA’s reports officers is invaluable.

      However, two external users noted DEA’s intelligence products would
be more valuable if issued in a more timely manner. The CIA official we
interviewed commented that there is a significant delay in receiving
information, which can negatively impact operations.

       In our report, we make nine recommendations to help the DEA to
improve the use of its intelligence analysts including that the DEA strengthen
its process for maintaining and reviewing security clearances, and develop a
process to ensure the timely transmission of terrorist-related intelligence.

      Our report contains detailed information on the full results of our
review of DEA intelligence analysts. The remaining sections of this Executive
Summary describe in more detail our audit findings.




                                    - vi -
Recruiting and Hiring

       To analyze the DEA’s hiring efforts, we obtained the actual number of
intelligence analysts onboard for each quarter of FYs 2004 through 2007 and
compared those numbers to the number of FTEs authorized, allocated and
the DEA’s hiring goal for those years.6


                                                   Intelligence Analyst Staffing by Category

                                  1000
Number of Intelligence Analysts




                                  950
                                                                                               Authorized7
                                  900

                                  850
                                                                                               Allocated
                                  800

                                  750
                                                                                                    Hiring Goal8, 9
                                  700
                                                                                                    Onboard
                                  650

                                  600
                                         FY 2004            FY 2005              FY 2006        FY 2007

Source: OIG summary analysis of data provided by the DEA Finance Office, Office of
                      9
Resource Management78


                                     6
          Throughout this audit, the DEA’s reported number of intelligence analysts onboard
fluctuated. As a result, our analysis was based on the number of intelligence analysts
onboard as reported by the DEA at the stated time of the report. In addition, we used a
conservative approach for our hiring analysis. For allocated FTEs, we used the lowest
number of FTEs that the DEA allocated in each fiscal year, because this number also
fluctuated throughout each year.
                                     7
           Authorized FTEs represent the congressional ceiling for intelligence analysts
contained in the DEA’s appropriation. Because this ceiling is typically not fully funded, our
hiring analysis did not assess the DEA’s efforts with respect to reaching its authorized level
of intelligence analysts.
                                     8
          According to the DEA CFO, the hiring goal is derived by multiplying the non-agent
staffing percentage by the authorized numbers. Base payroll funds from the salaries and
expenses portion of the DEA’s annual appropriation are set aside each year to maintain this
level of non-agent staffing. Intelligence analysts are considered part of this group. In
FY 2004, the DEA did not have a hiring goal for non-agents, and used the funding level
made available for non-agent hiring for that year as the hiring goal for intelligence analysts.
                                     9
          The DEA only had two hiring goals, one for special agents and another for non-
special agents. Intelligence analysts are included in the second hiring goal, and for the
remainder of this report, we will refer to this hiring goal as the intelligence analyst hiring
goal.


                                                                      - vii -
       As detailed in the chart above, the DEA did not reach the number of
intelligence analysts it allocated or its hiring goal at any time during our 4-
year review period. For the allocated level of intelligence analysts, the hiring
gap ranged from 81 in the first and fourth quarters of 2004 to 161 in the
first quarter of FY 2007. By the end of FY 2007, the hiring gap stood at 138.
A comparison between the hiring goal and the number of intelligence
analysts onboard shows a much smaller gap, which ranged from a low of 11
intelligence analysts during FY 2005 to a high of 27 intelligence analysts in
FY 2004. At the end of FY 2007, the gap between onboard and the hiring
goal was 22 intelligence analysts.

       We asked DEA officials why they have been unable to hire additional
intelligence analysts. The DEA CFO told us that for FYs 2004 through 2007
the DEA absorbed $210 million in unfunded salary increases, congressionally
mandated rescissions, streamlining initiatives that did not save money, and
new Administration mandates. In addition, because DEA staffing represents
approximately 50 percent of its entire budget, the DEA has lowered its
agency wide staffing levels in order to pay mandatory obligations and
support ongoing operations. As a result, according to the CFO, DEA’s salary
and expense account has been subject to a DEA-wide hiring freeze since
August 2006. The DEA reported that the hiring freeze officially ended when
the FY 2008 appropriation bill was signed in December 2007. DEA senior
management told the OIG that the exact number of intelligence analysts to
be hired will be determined after the DEA has completed its FY 2008
financial planning process.

       The Chief of Intelligence told us the Intelligence Division is less
affected by this hiring freeze than other divisions within the DEA because it
receives funding from other sources, including reimbursable agreements and
the Diversion Control Fee Account. In response to an increased need for
intelligence analyst support for the Diversion Control Program, in
March 2007 the DEA developed a plan to address the Diversion Intelligence
Initiative. One of the goals of this initiative is to place one intelligence
analyst in every field division with a diversion group.

      The DEA told us that, based upon its experience, it seeks three
applicants in its hiring pool for every intelligence analyst position it fills. The
DEA maintains a hiring pool even when there are no positions available, and
applicants are selected from the pool as new positions are approved for hire.
The DEA reported that it needs a large applicant hiring pool for several
reasons: (1) not all applicants are still interested when positions become
available; (2) the length of time it takes to complete background
investigations; and (3) some applicants accept other employment before the
background investigation is completed.



                                      - viii -
       According to the DEA Section Chief of Management and Production
Support, the DEA does not currently have enough intelligence analyst
applicants in its hiring pool to meet its current hiring needs based on its own
internal calculations. The DEA plans to hire approximately 80 intelligence
analysts in FY 2008 to replace those who retired, quit, or transferred, to hire
new intelligence analysts for the Diversion Control Program, and to replace
intelligence analysts who transferred from within DEA to this program. The
DEA will then need about 240 applicants in the hiring pool to meet the
required ratio of 3 applicants per position to be filled for its FY 2008 needs.
Since December 2006 the hiring pool ranged from a high of 268 applicants
to a low of 95 in September 2007. The hiring pool was depleted for a
number of reasons, including the fact that the DEA was able to hire 27
intelligence analysts in FY 2007 and the first 2 months of FY 2008 using the
Diversion Control Fee Account.

Training

       The DEA has established a combination of training for its intelligence
analysts through the Basic Intelligence Research Specialist (BIRS) training,
the Advanced Intelligence Training, an online Master’s degree program for
GS-14 and -15 intelligence analyst employees, and the opportunity for
non-supervisory employees who are GS-13 or below to take two training
classes related to their current assignment. As of 2003, all new intelligence
analysts must participate in a mentoring program — a 6-month program of
structured coaching by experienced analysts at the GS-12 or higher grade
level.

Basic Intelligence Research Specialist Training

      The DEA provides BIRS training to newly hired intelligence analysts at
the DEA Training Academy in Quantico, Virginia. DEA officials at the Office
of Training told us that the BIRS course curriculum emphasizes the
development of analytical skills, use of computerized tools, and a broad
range of academic subjects critical to providing mission-oriented intelligence,
both on a national and international scale. The training is conducted by
members of the intelligence staff, retired analysts, guests, Special Agents,
and private instructors. Students must pass BIRS training with a score of 80
percent or higher in order to become an intelligence analyst. According to
the DEA Office of Training Section Chief, all intelligence analysts who have
completed the training have passed.

      We reviewed the BIRS course descriptions and class schedules. We
also evaluated a judgmental sample of BIRS lesson plans and found them to




                                     - ix -
be detailed and comprehensive. We reviewed past student evaluations,
which generally indicated a high satisfaction level with the BIRS training.10

       The responses to our survey also indicated that intelligence analysts
who received training generally were satisfied with the training, although
concerns were expressed by a minority of respondents. We sent the survey
questions related to BIRS training to 487 intelligence analysts. Of the 487
intelligence analysts, 139 had been hired and attended BIRS in the last 6
years. Of these 139 respondents, 104 (75 percent) said that the BIRS
training met or exceeded their expectations. The remaining 35 respondents
(25 percent) felt that BIRS did not meet their expectations.11

       In addition, we asked Special Agents if the overall work force of
intelligence analysts had the knowledge and experience needed to produce
useful intelligence products to support drug enforcement cases or programs.
Of the 1,378 who responded to this question, 1,163 (84 percent) attributed
a moderate to high level of DEA’s intelligence analyst workforce with the
knowledge and experience needed to produce intelligence products.

       We also interviewed 24 intelligence analysts and supervisors, 2 SACs,
and 3 ASACs at DEA field offices in San Diego and New York about the
training. Many of the intelligence analysts and supervisors stated that they
believed the new 14-week BIRS training would be too long and that some of
the courses were unnecessary. For example, they believed classes such as
Defensive Driving, Firearms Safety, and Government and Financial Planning
were not related to the core work of an intelligence analyst and could be
removed from the curriculum. We share their concern that the expanded
BIRS training program includes training that could be better provided
through other means, such as web-based training or training conducted at
the intelligence analyst’s assigned office.




       10
           DEA officials told us that the Office of Training currently uses two levels of
evaluation for BIRS. The first level is based on student course evaluations and measures
how students respond to the training. The second level is a learning measurement, which is
usually in the form of the results of individual graded tests, exercises, and practical
applications. In the future, the DEA plans to conduct a third-level evaluation
12 to 18 months after a student graduates from BIRS. However, DEA officials told us that
the evaluation instrument for the third level has not yet been developed.
       11
           Among the reasons the 35 respondents gave for why they believed the training
was inadequate, the comments fell into the following categories: (1) the training lacked
practical exercises; (2) the training included too many unnecessary classes; (3) the training
did not prepare them to work in the field; (4) the instructors lacked skill and relied too
much on canned material; and (5) intelligence analysts learned more from on-the-job
training than from BIRS.


                                            -x-
Retention

       DEA intelligence analysts have a low attrition rate. From FYs 2004
through 2007 the attrition rates for intelligence analysts were 3.5 percent,
2.6 percent, 3.1 percent, and 3.2 percent, respectively. Because the FBI
employs the largest number of intelligence analysts within DOJ, we obtained
data from the Office of Personnel Management’s Central Personnel Data File
to compare the DEA and FBI intelligence analyst attrition rates. We found
that the FBI’s intelligence analyst average attrition rate for FYs 2004 to 2006
was more than twice that of DEA intelligence analysts for the same period.
The following chart compares the annual attrition rates for DEA and FBI
intelligence analysts for FYs 2004 to 2007.

                DEA AND FBI INTELLIGENCE ANALYSTS ATTRITION RATES
                                 FY 2004 – FY 2007*
          10%


                                                                FBI
                           FBI                                 9.5%

          8%
                          8.9%




          6%


                                         FBI
                                        5.5%
          4%
                                                                              FBI
                   DEA                                                       4.0%
                                                        DEA           DEA
                   3.5%
                                 DEA                    3.1%          3.2%
          2%
                                 2.6%




          0%

                    FY 2004       FY 2005                FY 2006       FY 2007

      Source: OIG analysis of Office of Personnel Management Central Personnel Data File
      *Central Personnel Data File accuracy may be affected by omissions, duplications,
      and invalid and miscoded data. FY 2007 is through June 2007.

      In our survey, we also asked intelligence analysts several questions
designed to gauge job satisfaction, such as:

      •         level of contribution to the DEA’s mission;

      •         level of satisfaction as a DEA intelligence analyst; and

      •         level of intellectual challenge they receive from their work.




                                               - xi -
       The following chart shows that DEA intelligence analysts generally
reported they were satisfied in their positions, found their work to be
intellectually challenging, and were contributing to DEA’s mission.

                 OVERALL DEA INTELLIGENCE ANALYSTS’ PERCEPTIONS

          100%



           90%



           80%
                                        Intellectually        Contributing to
                      Satisfied          Challenged            DEA Mission
           70%          86%                  89%                   95%

           60%



           50%



           40%



           30%



           20%



           10%



           0%


            Source: OIG survey of DEA intelligence analysts

Security Clearances

      The DEA has designated all intelligence analyst positions as “special
sensitive.” DOJ Employment Security Regulations require that a Special
Background Investigation be completed before an employee occupies a
special sensitive position. Incumbents are also required to undergo a
reinvestigation 5 years after their appointment and at least once each
succeeding 5 years. However, we found that the DEA did not have records
showing that each intelligence analyst had a Top Secret security clearance or
a reinvestigation within the last 5 years.

       In September 2007, we asked the Office of Security Programs to
provide a list of intelligence analyst security clearances. We received results
for 699 intelligence analysts. We performed limited testing from this list by
assessing from a judgmental sample if the DEA had met the requirements of
DOJ Employment Security Regulations. Of the 699 intelligence analysts, we
identified 82 instances in which intelligence analysts did not have a properly
recorded Top Secret clearance or a reinvestigation completed within the last
5 years. These instances included 19 intelligence analysts who had Secret
instead of Top Secret clearances, 62 intelligence analysts with Top Secret



                                        - xii -
clearances who did not have a reinvestigation within the last 5 years, and
1 intelligence analyst with no clearance.12

      In addition, we believe that the information maintained by the DEA’s
Office of Security Programs related to security clearances was not reliable.
Our testing identified the following issues with the data used by the DEA to
monitor security clearances:

       •      inconsistent dates between the manually updated DEA database
              for security clearance information, Eagle Eye; the file records;
              and the information provided by the Office of Security
              Programs;13

       •      blank data fields within Eagle Eye such as Initial Clearance, Last
              Reinvestigation Date, and Next Reinvestigation Date;

       •      documents within the file records were not maintained
              consistently from one file to another; and

       •      no internal controls to ensure dates were manually input
              correctly into Eagle Eye.

       We discussed our findings with the DEA Associate Deputy Chief
Inspector of Security Programs. She told us that in FY 2000, a decision was
made within the DEA to downgrade intelligence analyst’s security clearances
from top secret to secret as a cost savings measure. She said that since
that time, the decision to downgrade security clearances has been changed
and all intelligence analysts affected by this decision will be upgraded to the
Top Secret level at the time of their next reinvestigation or when required by
a new assignment. She said that the Office of Security Programs was aware
of these Secret clearances and has been attempting to address the clearance
issues with the resources they have available.

      The Associate Deputy Chief Inspector also told us that the Office of
Security Programs can reduce the number of intelligence analysts without a
current investigation by conducting a detailed research of Eagle Eye, the file
records, and OPM’s e-QIP system. In our judgment this is impractical. The
DEA should have one centralized reliable source for information related to
the security clearances of their personnel that is accurate and up-to-date.
Because our testing showed approximately 12 percent of DEA’s intelligence
       12
          The intelligence analyst with no clearance is assigned to the El Paso Intelligence
Center. We learned during our testing that this individual’s security file could not be
located. We were told the DEA has since initiated a new background investigation.
       13
          Eagle Eye is the DEA’s database used for maintaining security clearance
information on its 20,000 employees and contractors.


                                           - xiii -
analysts security clearances did not meet the DEA’s security requirements,
we are concerned that similar deficiencies may exist in the approximately
19,300 clearances that we did not review.

Quality and Effectiveness of Intelligence Reports

       The DEA divides drug intelligence into three broad categories: tactical,
investigative, and strategic. Tactical intelligence is information on which
immediate enforcement action — such as arrests, seizures, and
interdictions — can be based. Tactical intelligence is perishable and time
sensitive, and it requires immediate action. Investigative intelligence is
analytical information that provides support to investigations and
prosecutions. Investigative intelligence can be used to dismantle criminal
organizations and confiscate drug trafficking assets. Investigative
intelligence is an accumulation of detailed information over time. Strategic
intelligence is information that focuses on the broad picture of drug
trafficking from cultivation to distribution. The DEA’s strategic intelligence is
usually published in intelligence reports that are distributed to users in the
intelligence community and other law enforcement agencies. Another
mechanism for sharing DEA information is reports officer cables that contain
raw, unevaluated, confidential source data that can contribute to a better
understanding of the drug traffic. While this raw reporting can be used to
develop or support strategic assessments, it is not strategic intelligence.

Tactical and Investigative Intelligence

       Intelligence analysts are not typically assigned to a DEA investigative
case at the beginning of the case. Because the DEA has a caseload larger
than the number of intelligence analysts at each field office, an intelligence
analyst is usually assigned to a case when it is designated by the DEA as a
Priority Target Organization case.

       To assess the value of the tactical and investigative intelligence
developed by intelligence analysts, we reviewed a judgmental sample of 26
Priority Target Organization case files closed from October 1, 2005, through
January 31, 2007, at the Dallas, Los Angeles, and Miami field offices. As
part of the 26 closed case files tested, we examined the associated Reports
of Investigation in each of these cases. However, we found that the closed
case files did not contain enough tactical or investigative intelligence to
reach a conclusion as to quality, usefulness, and effectiveness of the
intelligence analysts’ work.

      Therefore, we also assessed responses from the survey of Special
Agents to determine the quality, usefulness, and effectiveness of intelligence
analyst products. In addition, we conducted follow-up interviews with 24



                                     - xiv -
intelligence analysts and supervisors at the San Diego and New York field
offices.

       Overall, the majority of Special Agents in our survey responded
positively to questions related to the accuracy, effectiveness, and timeliness
of intelligence analyst products used to support drug enforcement cases.
However, in some areas, significant numbers of Special Agents expressed
concern about the intelligence analysts’ intelligence products and quality of
work. For example, some special agents informed us that the quality of
intelligence analysts’ work was affected by poor supervision, not prioritizing
their work, or not being sure of their role.

       We asked Special Agents if they were aware of any backlog of
intelligence data to be processed or analyzed by an intelligence analyst.
Twenty-seven percent responded “yes” and generally indicated that a
backlog existed because intelligence analysts were overworked. However,
none of the intelligence analysts we interviewed in San Diego or New York
indicated that they were overwhelmed by their workload.

Strategic Intelligence

       The DEA’s Office of Strategic Intelligence is responsible for preparing
reports that focus on broad issues of drug trafficking from cultivation to
distribution. The role of intelligence analysts in this office is to review DEA
reporting, in combination with other law enforcement, intelligence
community, and open source information, and develop long-term analyses
and trends to assist drug law enforcement authorities and policymakers.

      Officials from four external organizations who we interviewed — the
CIA, the Department of State, the DIA, and the ODNI — told us that the
DEA’s strategic intelligence reports they received were valuable and useful.

      However, after testing 16 strategic reports, we are concerned about
the timeliness of the DEA’s reports. According to the DEA, intelligence
reports are verified for accuracy through a lengthy review process prior to
dissemination. We learned that all of the strategic intelligence reports we
tested were published, on average, about 21 months after the source
information was first observed by the DEA.

       During discussions with the Section Chief of Domestic Strategic
Intelligence, she stated that the DEA’s review process is necessary to ensure
the intelligence it produces is factual. Although we recognize the importance
of the review process, we are concerned about the length of time it takes to
publish these reports. Such reports, and the factual information in them,
may prove less useful if they are not available in a timely manner. We



                                     - xv -
believe it is important for the DEA to further evaluate the methods used to
produce and review strategic intelligence reports to ensure their timeliness.

Reports Officer Cables Untimely

      The DEA’s four reports officers review incoming DEA investigation
reports with a foreign nexus and develop cables for dissemination outside
the DEA, including to members of the intelligence community. These cables
are prepared each day by the reports officers after they review new DEA
Reports of Investigation retrieved from the DEA Communications Center.

       Reports officer cables are generally written within 24 hours of receipt
of the incoming DEA Report of Investigation and are forwarded to the Policy
and Liaison Section Chief for review, who then forwards the cable to various
departments within the DEA for review and approval. According to the
Section Chief, most reports officer cables should be reviewed and
disseminated within 3 to 6 weeks. However, the Chief of Intelligence told us
that when reports officers receive information related to terrorism, weapons,
or a foreign country’s military, the cable must be prepared and disseminated
to the intelligence community within 24 to 48 hours of receipt.

       Of the 4,500 cables prepared since June 2004, we selected a
judgmental sample of 81 to review. Our testing showed that cables are
transmitted on average in 34 days from the date the original information
was received by the DEA. Three of the 81 cables we tested were related to
terrorism and met the criteria for expedited processing.14 However, none of
the three terrorism-related cables were transmitted to the appropriate
agencies within the goal of the 24- to 48-hour timeframe. Instead, these 3
reports officer cables were not transmitted until 39, 44, and 76 days after
preparation. We discussed this with the DEA Chief of Intelligence, who
stated that although the cables were not transmitted timely, this information
was nevertheless immediately passed informally to the appropriate agencies.
However, in our judgment, this informal method of passing along crucial
information does not provide assurance that all responsible parties were
notified, that sufficient details were provided, or that the information was
disseminated appropriately.

      This lack of timeliness was also noted by the external users who
receive these cables. For example, the Director of the CIA Crime and
Narcotics Center believes the intelligence provided by the DEA is invaluable,
and the CIA shares this information with its agents stationed around the
       14
            One cable was related to Stinger missiles and other heavy arms for sale through
a terrorist group with the intention of harming coalition forces. The other two cables were
related to Taliban activity involving drug trafficking to finance terrorist activities and the
identification of significant terrorist cell training and operations in a specific district of
Afghanistan.


                                            - xvi -
world. However, this official also said that there is a consistent, significant
delay in receiving information from the DEA, and as a result some CIA
operations have been negatively impacted.

Recommendations

       Our report makes nine recommendations to help improve the use of
DEA intelligence analysts. The recommendations include developing a plan
to hire additional intelligence analysts; maintaining an adequate intelligence
analyst applicant hiring pool; establishing an adequate system to monitor
the status of the security clearances of intelligence analysts; ensuring that
all intelligence analysts have required Top Secret clearances and are
reinvestigated every 5 years; and developing a process for reviewing and
transmitting terrorist-related cables to the intelligence community in a more
timely manner.




                                     - xvii -
This page intentionally left blank.




             - xviii -
      THE DRUG ENFORCEMENT ADMINISTRATION’S
         INTELLIGENCE RESEARCH SPECIALISTS

                              TABLE OF CONTENTS

INTRODUCTION .............................................................................. 1
      Intelligence Division .............................................................. 2
      Role of Intelligence Analysts and Reports Officers...................... 2
      Budget Structure .................................................................. 5
      OIG Audit Approach .............................................................. 6

FINDINGS AND RECOMMENDATIONS ................................................. 9

1.   RECRUITING, TRAINING, AND RETENTION ................................... 9
         Recruiting and Hiring ...................................................... 10
         Training ........................................................................ 14
         Retention ...................................................................... 18
         Security Clearances ........................................................ 22
         Recommendations .......................................................... 25

2.   QUALITY, USEFULNESS, AND EFFECTIVENESS OF
     INTELLIGENCE REPORTS.......................................................... 27
          Intelligence Analysts ....................................................... 28
          Reports Officers.............................................................. 38
          Recommendations .......................................................... 41

STATEMENT ON INTERNAL CONTROLS ............................................. 43

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ........... 45

APPENDICES ................................................................................ 47
        Appendix I – OBJECTIVES, SCOPE, AND METHODOLOGY ...... 47
        Appendix II – ACRONYMS ................................................ 51
        Appendix III – DEA DOMESTIC DIVISIONS......................... 52
        Appendix IV – INTELLIGENCE ANALYSTS IN DOMESTIC FIELD
                           OFFICES BY LOCATION ............................... 53
        Appendix V – DEA FOREIGN FIELD OFFICES ....................... 57
        Appendix VI – INTELLIGENCE ANALYSTS IN FOREIGN FIELD
                            OFFICES BY LOCATION ............................... 58
        Appendix VII – DEA REPONSE TO THE DRAFT REPORT ......... 61
        Appendix VIII – OFFICE OF THE INSPECTOR GENERAL
                              ANALYSIS AND SUMMARY OF ACTIONS
                              NECESSARY TO CLOSE THE REPORT ........... 73
            THE DRUG ENFORCEMENT ADMINISTRATION’S
                 USE OF INTELLIGENCE ANALYSTS

                                 INTRODUCTION


       Timely and accurate intelligence is used to assess the operations and
vulnerabilities of criminal networks, to systematically interdict illegal
contraband, and to evaluate the impact of illegal activities. Intelligence is
also needed to identify new methods of illegal drug trafficking and to
establish long-range enforcement strategies. DEA management also uses
intelligence for operational decision-making, resource deployment, and
policy planning.

       The Drug Enforcement Administration’s (DEA) stated mission is to
enforce controlled substances laws and regulations by investigating
members of organizations involved in the growing, manufacture, or
distribution of controlled substances appearing in or destined for illicit traffic
in the United States. Further, the DEA also recommends and supports non-
enforcement programs aimed at reducing the availability of illicit controlled
substances in domestic and international markets. Since terrorist groups
frequently participate in or receive funds from drug trafficking to further
their agendas, the DEA also may develop intelligence relevant to terrorist
organizations during drug investigations and intelligence collection.

       The DEA shares information with the intelligence community in
furtherance of its mission to identify and disrupt illegal drug trafficking.15
This partnership was formalized in February 2006 when the Attorney General
and the Director of National Intelligence signed a joint memorandum
designating an element of the DEA’s Office of Intelligence – the Office of
National Security Intelligence – as a member of the intelligence community.
While mostly formalizing an existing partnership, this link between the DEA
and the intelligence community was designed to ensure that the DEA shares
intelligence with other intelligence community members and law
enforcement agencies.




       15
           The intelligence community consists of 18 members, such as the Central
Intelligence Agency, the Department of State, the FBI, the National Security Administration,
the Department of Defense, the Office of the Director of National Intelligence, and others,
conducting intelligence activities on behalf of the United States.
Intelligence Division

      According to the DEA, the Intelligence Division performs analysis in the
development of investigations targeting major drug trafficking organizations,
strengthens ongoing investigations and subsequent prosecutions, develops
information that leads to seizures and arrests, and provides policymakers
with drug-trend information upon which programmatic decisions can be
based.

       Intelligence Division employees include intelligence research
specialists, also known as intelligence analysts.16 The number of DEA
intelligence analysts has grown from 11 since the DEA’s inception in 1973 to
710 intelligence analysts stationed around the world as of March 15, 2008.17

Role of Intelligence Analysts and Report Officers

       DEA intelligence analysts synthesize information on illicit drug
trafficking from a variety of sources, including DEA investigations, seized
documents, surveillance reports, informants, confidential sources, and
court-ordered wiretaps. Intelligence analysts assess and summarize this
information and provide it to DEA Special Agents; supervisory DEA
personnel; United States Attorneys; grand juries; federal, state, local, and
foreign law enforcement agencies; and other intelligence agencies. In
addition to its intelligence analysts, the DEA currently has four contract
reports officers working in the DEA’s Policy and Liaison Section.

       Within DEA headquarters, intelligence analysts are assigned to the
offices of Strategic Intelligence, Investigative Intelligence, Special
Intelligence, and the Office of Intelligence Policy and Management.
Intelligence analysts are also assigned to several DEA field support
organizations:

       •      Organized Crime Drug Enforcement Task Forces which were
              created to identify, disrupt, and dismantle the most serious drug
              trafficking and money laundering organizations;

       •      the El Paso Intelligence Center, which serves as the principal
              national tactical intelligence center for drug law enforcement;
              and
       16
           Because the term “intelligence analyst” is commonly used within the DEA, the
FBI, and the intelligence community, we have also used it in this report to refer to
intelligence research specialists.
       17
         The DEA’s domestic and foreign field office locations are described in Appendix III
and Appendix V, respectively.


                                           -2-
       •      the Office of Aviation Operations, which provides aviation
              support to DEA domestic offices throughout the United States for
              High Intensity Drug Trafficking Areas, Special Enforcement
              Operations, Mobile Enforcement Teams, the Southwest Border
              Initiative, and the National Marijuana Eradication Strategy.

       The DEA has 86 foreign offices in 62 countries worldwide. As of July
2007, the DEA had intelligence analysts in 39 foreign offices. However, 91
percent of the DEA’s intelligence analysts are assigned to one of the DEA’s
103 headquarters, field support, or domestic field offices. The chart below
illustrates the percentages of intelligence analysts’ assignments by location.
                                                                         18
              INTELLIGENCE ANALYSTS ASSIGNED BY LOCATION

                  Foreign
                  Field
                  Offices                           Headquarters
                               9%

                                            23%




                                                 11%       Field Support
   Domestic
   Field Offices      57%




Source: OIG analysis of DEA data from the Intelligence Division, Management and
Production Support Section




       18
          The distribution of intelligence analysts for field support is as follows: Organized
Crime Drug Enforcement Task Force (31), El Paso Intelligence Center (41), and the Office of
Aviation Operations (5).


                                            -3-
Characteristics of Intelligence Analysts

       We developed two survey questionnaires that we sent to 675 DEA
intelligence analysts and 4,843 DEA Special Agents. The survey
questionnaire for intelligence analysts contained 69 questions designed to
gather information regarding their education level and work background, job
satisfaction, and perceptions of their role in fulfilling the DEA’s mission.

      The following chart shows intelligence analysts’ responses to the
question on their education level when they began work at the DEA.

                    INTELLIGENCE ANALYSTS’ EDUCATION LEVELS



                                                             Bachelor's Degree
                                                                   55%



                Other
                 9%




        Doctoral Degree
              1%



                                                                    Two or More
                                                                   4-Year Degrees
                        Master's Degree
                                                                        5%
                             30%




Source: OIG survey of DEA intelligence analysts

      As shown in the following table, the grade level of DEA intelligence
analysts ranges from GS-9 to the Senior Executive Service level.19 The
average grade level of an intelligence analyst is GS-13.
       19
            The federal government uses the General Schedule, which consists of 15 grades
(GS-1 being the lowest and GS-15 being the highest), each broadly defined in terms of work
difficulty, responsibility, and qualifications required for performance. The Senior Executive
Service covers most managerial, supervisory, and policy positions in the Executive branch
that are classified above the GS-15 level.



                                           -4-
                  INTELLIGENCE ANALYSTS WORKFORCE BY GRADE
                                as of June 2007


                   General    Schedule (GS)                           Senior
   On                                                                Executive
 Board    GS-9     GS-11      GS-12     GS-13     GS-14    GS-15      Service      Total
Number     22        31        104       412       99       16           3          687
Percent
of Total 3.2 % 4.6 %          15.1% 60.0% 14.4%             2.3%       0.4%       100%
Source: OIG analysis of DEA   Intelligence Division data

Reports Officers

       Along with intelligence analysts, the DEA currently has four contract
reports officers working in DEA’s Policy and Liaison Section. These reports
officers review incoming DEA Reports of Investigation with a foreign nexus
and develop reports, known as reports officer cables, for the intelligence
community. Because the reports officers are contract employees, the DEA
does not have a role in recruiting and only a limited role training reports
officers.

Budget Structure

      For fiscal year (FY) 2004, the budget for the DEA’s Intelligence
Division was 7 percent of the DEA’s total budget allocation20 For FYs 2005
through 2007, the budget for the DEA’s Intelligence Division was 8 percent
of the DEA’s total budget allocation.21 The DEA’s total budget has risen by
an average of 5.8 percent per year from FY 2004 to FY 2007. However, the
DEA Intelligence Division’s total budget decreased by about $700,000
between FY 2006 and FY 2007.

     The table below shows the DEA’s total appropriated budget and the
budget allocation for DEA’s Intelligence Division for FYs 2004 through 2007.

       20
           Total appropriated budget is the total amount of money the DEA was authorized
by Congress to obligate each year and is the amount approved by Congress in its
appropriation bills. The authorized budget is the amount of money DEA set aside from the
total obligation authority for the Intelligence Division and related programs. The authorized
budget is further broken down into smaller portions for recruiting, hiring, training, and
retention within the Intelligence Division.
       21
          Numbers for each fiscal year have been rounded: FY 2004 - $146,714,905 divided
by $2,212,517,222 equals 7 percent; FY 2005 – $185,218,258 divided by $2,329,958,345
equals 8 percent; FY 2006 – $198,717,058 divided by $2,398,012,099 equals 8 percent;
FY 2007 – $198,039,440 divided by $2,596,308,249 equals 8 percent.



                                            -5-
                 DRUG ENFORCEMENT ADMINISTRATION BUDGET
                             FY 2004 – FY 2007

                      FY 2004          FY 2005          FY 2006          FY 2007
Total
Appropriated
Budget             $2,212,517,222   $2,329,958,345   $2,398,012,099   $2,596,308,249
Intelligence
Division
Total Budget
Allocation          $146,714,905       $185,218,258    $198,717,058    $198,039,440
Source: DEA Budget and Finance, Office of Resource Management

       The DEA’s office of Drug Diversion Control is responsible for
investigating the diversion, distribution, manufacture, and abuse of
legitimate pharmaceuticals and the diversion of controlled chemicals. The
Diversion Control Fee Account funds the Diversion Control Program through
registration and application fees relating to the manufacture, distribution,
and dispensing of controlled substances and chemicals. In response to an
increased need for intelligence analyst support for the Diversion Control
Program, in March 2007 the DEA developed a plan to address the Diversion
Intelligence Initiative and 36 positions have been filled as of November
2007. One of the goals of this initiative is to place one intelligence analyst in
every DEA field division with a diversion group.

OIG Audit Approach

       The Department of Justice (DOJ) Office of the Inspector General (OIG)
conducted this audit to assess: (1) how effectively the DEA recruits, trains,
and retains its intelligence analysts, and (2) the quality, usefulness, and
effectiveness of the intelligence reports and related products produced by
the intelligence analysts and report officers.

       In performing this audit, we interviewed officials from the DEA’s
Intelligence Division, Office of National Security Intelligence, Human
Resources Division, Office of Finance, Office of Inspections at DEA
headquarters, and the Office of Training at the DEA Training Academy. We
also interviewed officials from agencies that use the DEA’s intelligence
products. Those agencies include: the Central Intelligence Agency (CIA),
the Department of State, the Defense Intelligence Agency (DIA), and the
Office of the Director of National Intelligence (ODNI). In addition, we
interviewed DEA intelligence analysts, Special Agents, group supervisors,
field intelligence managers, Special Agents-in-Charge (SACs), and Assistant
SACs. We performed audit work at the El Paso Intelligence Center and in




                                       -6-
DEA field offices in Dallas, Houston, Los Angeles, Miami, San Diego, and New
York City.

       We developed two survey questionnaires that were sent to 675
intelligence analysts and 4,843 Special Agents in the DEA.22 The intelligence
analyst survey questionnaire contained 69 questions designed to gather
information regarding intelligence analysts’ education and work background,
job satisfaction, and perceptions of their role in fulfilling the DEA’s mission.
We received 487 responses (72 percent) to this survey. The Special Agent
survey questionnaire contained 14 questions that were designed to ascertain
Special Agents’ views on the effectiveness of intelligence analysts and their
intelligence products. We received 1,700 responses (35 percent) to the
Special Agent survey.

      In addition, we reviewed and analyzed the DEA’s intelligence reports,
closed case files, and other documents regarding the work of intelligence
analysts. More information on our objectives, scope, and methodology can
be found in Appendix I.




       22
          Throughout this audit, the number of intelligence analysts onboard as reported by
the DEA fluctuated. As a result, our analysis is based on the number of intelligence analysts
onboard as reported by the DEA at the stated time.


                                           -7-
This page intentionally left blank




              -8-
              FINDINGS AND RECOMMENDATIONS

1.   Recruiting, Training, and Retention

     From FYs 2004 through 2007, the number of DEA intelligence
     analysts onboard increased by 8 percent. However, the DEA’s
     allocated number of intelligence analysts increased by 15
     percent. As a result, as of September 2007, the DEA had 138
     fewer intelligence analysts onboard than the number of
     intelligence analysts allocated by the DEA and 22 fewer
     intelligence analysts than its stated hiring goal. The DEA
     attributes this shortfall in its intelligence analysts staffing level to
     $210 million in unfunded salary increases, congressionally
     mandated rescissions, streamlining initiatives that did not save
     money, and new Administration mandates.

     With respect to training, our review found that the DEA has
     implemented a combination of training for intelligence analysts,
     including Basic Intelligence Research Specialists training,
     Advanced Intelligence Training, a mentoring program, and
     specific training tailored to individual needs. We reviewed
     analysts’ evaluations of the basic training, which generally
     indicated a high satisfaction level.

     We also found that the DEA’s intelligence analyst workforce has
     a low attrition rate that has generally remained consistent at
     approximately 3 percent from FY 2004 to FY 2007. This
     compares favorably to the attrition rate for intelligence analysts
     at other agencies, such as that of the FBI, where the attrition
     rate ranged from 9.5 to 4 percent between FYs 2004 and 2007.
     We also found that overall, DEA intelligence analysts are
     satisfied in their positions, believe they contribute to DEA’s
     mission, and find their work intellectually challenging.

     However, we identified inaccuracies and inconsistencies in the
     DEA’s security clearance database and records for intelligence
     analysts. The records indicated that a significant number of
     intelligence analysts did not have a Top Secret clearance as
     required by the DEA, and that some intelligence analysts with
     Top Secret clearances did not have a reinvestigation within the
     last 5 years, as required by DOJ Order 2610.2A.




                                      -9-
Recruiting and Hiring

       The DEA’s recruiting efforts are centralized at DEA headquarters, and
the Intelligence Division maintains a hiring pool of pre-screened applicants
from which it can hire when positions are approved. From December 2006
through September 2007, the hiring pool ranged from a high of 268 to a low
of 95 applicants. The Deputy Chief of Intelligence and the Section Chief of
Management and Production Support for Intelligence told us that the DEA
has an ongoing effort to recruit and screen qualified applicants in order to
maintain an adequate number of candidates in the hiring pool. The DEA said
it seeks applicants who demonstrate the ability to analyze information,
identify significant factors, gather pertinent data, plan and organize work,
and communicate effectively. According to the Section Chief, the
Intelligence Division actively recruits applicants by participating at job fairs
and by advertising on the DEA website. The DEA also receives and responds
to phone inquiries, unsolicited resumes, and referrals.

       The Section Chief told us that based upon its experience, the DEA
needs three applicants in its hiring pool for every intelligence analyst
position it seeks to fill. The DEA continues to maintain the hiring pool even
when there are no positions available. Applicants are selected from the
hiring pool as new positions are approved for hire. The DEA states that it
needs a large applicant hiring pool for several reasons: (1) not all applicants
are still interested when positions become available; (2) the length of time it
takes to complete background investigations; (3) some applicants accept
employment elsewhere before the background investigation is completed;
and (4) some applicants do not want to relocate to where the DEA needs
them, such as in Los Angeles and Washington, D.C.

Hiring Efforts

      The DEA receives funding for intelligence analysts from congressional
appropriations each fiscal year and from other sources, such as the
Diversion Control Program. The table on the following page details FTE and
funding data for FYs 2004 to 2007.




                                     - 10 -
                       DEA INTELLIGENCE ANALYST FTES AND BUDGET


                                                                                       Salaries and
                                                                                       Expenses for
                                                        Hiring                         Intelligence
Fiscal Year   Authorized23        Allocated24           Goal25           On-board       Analysts26
   2004           790                 726                672               645         $63,063,621
   2005           808                 751                679               668         $66,693,178
   2006           858                 769                704               684         $72,492,381
   2007           936                 837**              721               699         $75,853,068


      Source: DEA Budget and Finance, Office of Resource Management
      ** Includes 73 Diversion Control Fee Account positions allocated in June 2007.


         As detailed in the table above, from FYs 2004 through 2007, the DEA’s
  authorized FTEs increased by 146 positions, its allocated FTEs increased by
  111 positions, and its hiring goal increased by 49 intelligence analyst
  positions. Further, the number of intelligence analysts onboard increased by
  54, and its appropriated funding level for intelligence analysts’ salaries and
  expenses increased by almost $13 million. In percentage terms, over the
  same time period authorized FTEs increased by 18 percent, allocated FTEs
  increased by 15 percent, the hiring goal increased by 7 percent, the onboard
  positions increased by 8 percent, and salaries and expenses increased by 20
  percent.

         23
            The term “authorized” refers to the maximum number of congressionally
  authorized positions for intelligence analysts. Typically, this number represents a ceiling,
  and appropriated funds are not always provided to allow agencies to hire up to this level.
         24
             According to the DEA CFO, the term “allocated” refers to the number of positions
  the DEA has allocated to individual offices, based on congressionally authorized levels. The
  DEA refers to this allocated number of positions as its “Table of Organization.” This number
  is usually adjusted throughout the year. For FYs 2004 through 2007, the adjusted numbers
  were always equal to or exceeded the number at the beginning of the year.
         25
             According to the DEA CFO, the hiring goal is derived by multiplying a percentage
  staffing level by the authorized ceiling. The percentage is developed by the DEA’s Office of
  Resource Management, after the budget appropriations are signed each year, and approved
  by the Administrator. The percentages were: 84 percent for FY 2005, 82 percent for
  FY 2006, and 77 percent for FY 2007. The CFO also told us that in FY 2004 the DEA did not
  have a hiring goal for non-special agents. We used the funding level made available for
  non-special agent hiring for that year, which was 85 percent.
         26
            The salaries and expense amounts for intelligence analysts includes funding from
  the Diversion Control Fee Account, the Violent Crime Reduction Program, and reimbursable
  programs. In addition, these amounts include salaries and expenses for four reports
  officers.



                                                 - 11 -
      In order to analyze the DEA’s hiring efforts, we obtained the actual
number of intelligence analysts onboard for each quarter of FYs 2004
through 2007, and compared these numbers to the number of FTEs allocated
as well as the hiring goals for those years. The results appear in the
following chart.


                                                   Intelligence Analyst Staffing by Category

                                  1000
Number of Intelligence Analysts




                                  950
                                                                                               Authorized
                                  900

                                  850
                                                                                               Allocated
                                  800

                                  750
                                                                                                   Hiring Goal
                                  700
                                                                                                    Onboard
                                  650

                                  600
                                         FY 2004            FY 2005              FY 2006        FY 2007

Source: OIG summary analysis of data provided by the DEA Finance Office, Office of
Resource Management

       As detailed above, the DEA did not reach its allocated number of
intelligence analysts, or its hiring goal with respect to intelligence analysts at
any time during our 4-year review period. Although DEA’s allocated FTEs for
intelligence analysts increased by 15 percent from FY 2004 to 2007, the
actual number of intelligence analysts onboard only increased by 8 percent
for this same period. For the allocated level of intelligence analysts, the
hiring gap ranged from 81 in the first and fourth quarters of FY 2004 to 161
in the first quarter of FY 2007, and was 138 at the end of FY 2007. A
comparison between DEA’s hiring goal and the number onboard shows a
much smaller gap, which ranged from a low of 11 intelligence analysts
during FY 2005 to a high of 27 intelligence analysts in FY 2004. At the end
of FY 2007, the gap between onboard and the hiring goal was 22 intelligence
analysts. The reasons for the shortfall are discussed in the next section.




                                                                      - 12 -
Not Maintaining Allocated or Hiring Goal Staffing Levels

       In our survey, we asked Special Agents if the current number of
intelligence analysts was adequate to provide for Special Agents’ research
and analytical needs. Eighty percent responded that the current number of
intelligence analysts was not adequate, and 87 percent responded that the
current ratio of 10 Special Agents for every intelligence analyst should be
lower.

       As discussed above, the DEA had not hired up to its allocated staffing
level, or to its hiring goal for intelligence analysts. The DEA CFO stated that
the DEA did not reach its authorized staffing levels for FYs 2004 through
2007 because it had to absorb $210 million in unfunded salary increases,
congressionally mandated rescissions, streamlining initiatives that did not
save money, and new Administration mandates that cut the DEA’s budget in
specific areas such as rent, travel, and money available for permanent
change of station moves. The administration also mandated cuts to the
DEA’s base budget, and noted that crosscutting savings may exist in areas
such as consolidation of facilities, communications networks, human
resource management, fleet management, and procurement management.
In addition, because DEA staffing represents approximately 50 percent of
the DEA’s entire budget, the DEA has lowered its onboard staffing levels in
order to pay mandatory obligations and support ongoing operations. As a
result, the DEA implemented an agency-wide hiring freeze. Specifically, the
DEA’s salary and expense account was subject to a component-wide hiring
freeze from August 2006 until January 2008. Another DEA management
official told the OIG that the DEA also experiences problems in hiring
analysts in locations where there is a need, such as Washington, D.C. and
Los Angeles.

      The DEA reported that the hiring freeze officially ended when the
FY 2008 appropriations bill was signed in December 2007. DEA senior
management told the OIG that the exact number of intelligence analysts to
be hired for all programs other than the Diversion Control Program will be
determined after the DEA has completed its FY 2008 financial planning
process. The Chief of Intelligence told us the Intelligence Division is less
affected by this hiring freeze than other divisions within the DEA because it
receives funding from other sources, including reimbursable agreements and
the Diversion Control Fee Account.

       The Section Chief of Management and Production Support for
Intelligence told us that as of March 2007 the DEA was in the process of
hiring 73 intelligence analysts using funds from the Diversion Control Fee
Account. As of November 2007, 29 existing DEA intelligence analysts were
transferred to diversion positions and 7 new intelligence analysts were hired


                                    - 13 -
for additional diversion positions. The Section Chief said that the Chief of
Intelligence requested each domestic division Special Agent-in-Charge to
identify specific field offices where new intelligence analysts would be
assigned. SACs also were to identify qualified, experienced intelligence
analysts to fill some of the new Diversion Control Program positions. These
new Diversion Control Program positions are funded through the Diversion
Control Fee Account rather than the congressionally appropriated salary and
expense account.

       We are concerned that the number of on board intelligence analysts
continues to lag behind both the number of FTEs the DEA allocated to its
offices and to its hiring goals based on appropriated funding for intelligence
analysts. We are also concerned that there are currently not enough
applicants in the hiring pool to meet the DEA’s projected FY 2008 hiring
needs. Since December 2006, the hiring pool ranged from a high of 268
applicants to a low of 95 in September 2007. The hiring pool was depleted
for a number of reasons, including that the DEA has hired 27 new
intelligence analysts and other applicants were no longer available or
interested in relocating to duty stations such as Los Angeles or
Washington, D.C. Applying the DEA’s ratio of three applicants in the pool for
every analyst position it fills, the DEA will need about 240 applicants in the
hiring pool to hire the approximately 80 intelligence analysts projected in
FY 2008 to replace those who retired, quit, or transferred, to hire new
intelligence analysts for the Diversion Control Program and to replace
intelligence analysts that transferred to this program from other duties.

       Finally, we believe that the DEA’s process for determining how many
intelligence analysts it can hire was hindered because the DEA did not have
a specific hiring goal for intelligence analysts. As described previously, the
DEA establishes two hiring goals, one for special agents, and another for all
non-special agents, which includes intelligence analysts. We believe that the
DEA could more effectively manage its intelligence analysts if it established a
separate hiring goal that specifically considered its intelligence analyst
needs. According to the DEA CFO, starting in FY 2008, the DEA will establish
separate hiring goals for various types of employees, including intelligence
analysts.

Training

       The DEA has implemented a combination of training for its intelligence
analysts. As discussed below, all intelligence analysts are required to take
Basic Intelligence Research Specialists (BIRS) training and Advanced
Intelligence Training. The DEA also offers intelligence analysts a variety of
other training that is specifically tailored to intelligence analysts’ needs.



                                    - 14 -
Additionally, since 2003 all new intelligence analysts must participate in a
mentoring program.

Basic Intelligence Research Specialist Training

       The DEA provides BIRS training to newly hired intelligence analysts at
the DEA Training Academy in Quantico, Virginia.27 DEA officials at the Office
of Training told us that the BIRS course curriculum emphasizes the
development of analytical skills, use of computerized tools, and a broad
range of academic subjects critical to providing mission-oriented intelligence,
both on a national and international scale. The training is conducted by
members of the intelligence staff, retired analysts, guests, Special Agents,
and private instructors. Students must pass BIRS training with a score of 80
percent or higher. According to the DEA Office of Training Section Chief, all
intelligence analysts who have completed the course have passed.

       We reviewed the BIRS course descriptions and class schedules that
were contained in the curriculum developed to teach all intelligence analysts.
The curriculum included classes such as Basic Law Enforcement Report
Writing, National Security Information Handling, Telephone Tolls Analysis,
Internet Telecommunication Exploitation Program, Terrorism Financing
Activities and Techniques. We also evaluated a judgmental sample of BIRS
lesson plans and found them to be comprehensive.

       We reviewed past student evaluations, which generally indicated a
high satisfaction level with the BIRS training.28 For our survey questions
related to BIRS training, we considered the 139 respondents who completed
the training within the past 6 years to obtain more recent feedback. Of
these 139 respondents, 104 (75 percent) said that the BIRS training met or
exceeded their expectations. The remaining 35 respondents (25 percent)
felt that BIRS did not meet their expectations.29

       27
         From 1974 to 2001, the BIRS training program ranged from 2 to 10 weeks in length.
From 2002 to 2006, the course length was 9 weeks. However, as of July 2007, the course was
expanded to 14 weeks.
       28
            DEA officials told us that the Office of Training currently uses two levels of evaluation
for BIRS. The first level is based on student course evaluations and measures how students
respond to the training. The second level is a learning measurement, which is usually in the
form of the results of individual graded tests, exercises, and practical applications. In the
future, DEA official said they plan to conduct a third-level evaluation 12 to 18 months after a
student graduates from BIRS. However, DEA officials told us that the evaluation instrument for
the third level has not yet been developed.
       29
          Among the reasons given by these 35 respondents why they believed the training was
inadequate, the explanations fell into the following categories: (1) the training lacked practical
exercises; (2) the training included too many unnecessary classes; (3) the training did not


                                             - 15 -
       In addition, we asked Special Agents if the overall work force of
intelligence analysts had the knowledge and experience needed to produce
useful intelligence products that support drug enforcement cases or
programs. Of the 1,378 Special Agents who responded to this question,
1,163 (84 percent) attributed a high or moderate level of DEA’s intelligence
analyst workforce with the knowledge and experience necessary to produce
useful intelligence products.

       We also interviewed 24 intelligence analysts and supervisors, 2 SACs
and 3 ASACs at field offices in San Diego and New York about the training.
Many of these intelligence analysts and supervisors stated that they believed
the new 14-week BIRS training would be too long and that some of the
courses were unnecessary. They believed classes such as Defensive Driving
and Firearms Safety were not related to the core work of an intelligence
analyst and could be removed from the curriculum. We also share their
concern that the expanded BIRS training program includes curriculum that
may be unnecessary or potentially available to intelligence analysts through
other means. Training such as Government and Financial Planning and the
Employee Assistance Program orientation may be more efficiently taught
through web-based training or orientation at the intelligence analyst’s duty
location.

      When we asked DEA training officials about this issue, they stated that
the BIRS 14-week class is a pilot and changes might be warranted as the
need arises.

Other Training Opportunities

      The DEA Office of Training provides Advanced Intelligence Training for
GS-12 and GS-13 intelligence analysts. The Office of Training received
funding for Advanced Intelligence Training and conducted classes in July,
September, and November 2007. We were told by DEA management that
“future AITs will be scheduled in 2008 to ensure that all GS-13s and below
have received the training.”

      Of the 487 intelligence analysts who responded to the survey, 29 had
attended Advanced Intelligence Training in their first 2-year cycle. Of the 29
respondents, 24 (83 percent) reported it was beneficial in performing their
jobs. The other five respondents said they did not find Advanced



prepare them to work in the field; (4) the instructors lacked skill and relied too much on canned
material; and (5) intelligence analysts learned more from on-the-job training than from BIRS.



                                           - 16 -
Intelligence Training beneficial because they thought nothing new was
taught or presented.

       Additionally, 25 of the 29 respondents (86 percent) had attended
intelligence-related training in addition to BIRS and Advanced Intelligence
Training. All of these respondents reported that the training was made
available to them within 1 year of their request and that the training
enhanced their skill level.

       The DEA offers additional intelligence training to all intelligence
analysts, for example the DEA has an on-line Master’s degree program for
GS-14 and -15 intelligence analyst employees. The DEA also offers non-
supervisory employees who are GS-13 or below the opportunity to take two
training classes related to an employee’s current assignment and additional
training to meet agency needs from commercial vendors.

       Of the 487 intelligence analysts who responded to the survey, 345
respondents (71 percent) believe that training beyond BIRS and Advanced
Intelligence Training is necessary for intelligence analysts to do their jobs
more effectively and to enhance their skills.

Mentoring Program

       In addition to the training offered through the Office of Training, the
Intelligence Division implemented a mentoring program in January 2003.
The DEA intelligence analyst mentoring program is a 6-month program of
structured coaching for new intelligence analysts. Mentors are experienced
intelligence analysts at the GS-12 or higher grade levels who have
completed a 1-week certified training program offered by the Office of
Training. Mentors are assigned in the role of teacher or coach to new
intelligence analysts who enter on duty at their assigned office after
completion of BIRS training.

      According to the DEA, the goals of the mentoring program are to:
(1) ensure new intelligence analysts can apply the skills acquired during
BIRS training, (2) provide a smooth transition into the analytical work
environment, (3) familiarize new intelligence analysts with the policies and
practices of their assigned office, and (4) provide the necessary instruction
to maximize the capabilities of new intelligence analysts. One hundred sixty
of 187 respondents (86 percent) who participated in the program believed
the mentoring program was useful or very useful.




                                    - 17 -
Retention

       The DEA’s intelligence analyst workforce has a low attrition rate. For
FYs 2004 to 2007, the attrition rates for intelligence analysts were
3.5 percent, 2.6 percent, 3.1 percent, and 3.2 percent, respectively.
Because the FBI employs the largest number of intelligence analysts within
DOJ, we obtained data from the Office of Personnel Management’s Central
Personnel Data File to compare DEA and FBI intelligence analyst attrition
rates.

      We determined the FBI’s average intelligence analyst attrition rate for
FYs 2004 to 2006 is more than twice that of the DEA’s intelligence analysts.
The following chart shows the DEA’s attrition rate for intelligence analysts
has consistently been below that of FBI intelligence analysts.

            DEA AND FBI INTELLIGENCE ANALYSTS ATTRITION RATES
                             FY 2004 – FY 2007*
          10%


                                                            FBI
                         FBI                               9.5%

           8%
                        8.9%




           6%


                                        FBI
                                       5.5%
           4%
                                                                          FBI
                 DEA                                                     4.0%
                                                   DEA            DEA
                 3.5%
                                DEA                3.1%           3.2%
           2%
                                2.6%




           0%

                  FY 2004        FY 2005               FY 2006     FY 2007

      Source: OIG analysis of Office of Personnel Management Central Personnel Data File
      *Central Personnel Data File accuracy may be affected by omissions, duplications,
      and invalid and miscoded data. FY 2007 data is through June 2007.

      Our survey also asked intelligence analysts to report the likelihood
they will remain with the DEA for the next 5 years. Of the 487 intelligence
analysts who responded to our survey, 395 (81 percent) stated that they
plan on staying with the DEA for 5 more years. Of the remaining 92
respondents, 56 were undecided and 36 said they plan on leaving the DEA
for various reasons. Of these 36 respondents, 16 planned to retire within
the next 5 years, 6 are looking for better promotion opportunities, and the


                                              - 18 -
remaining 14 gave a broad range of reasons including seeking higher salary,
lack of good management, better location, and personal issues.

      This intelligence analyst retention rate compares favorably to the
responses we received in May 2005 from FBI intelligence analysts when we
conducted a similar survey. In the FBI, 64 percent (519 of 816 intelligence
analysts) responded that they planned to stay with the FBI for the next 5
years.30 The following chart shows the likelihood that intelligence analysts in
the DEA and FBI will remain with their respective agencies for the next
5 years.

             LIKELIHOOD DEA AND FBI INTELLIGENCE ANALYSTS WILL STAY
                   WITH THEIR RESPECTIVE AGENCIES FOR 5 YEARS

           80%


                                     DEA
           70%                      81.1%


           60%
                    FBI
                   63.6%
           50%



           40%



           30%



           20%
                                             FBI
                                            22.2%
           10%
                                                              FBI       DEA
                                                      DEA    14.2%     11.5%
                                                      7.4%
            0%

                           Likely              Unlikely         Undecided


            Source: OIG survey of DEA and DOJ OIG Audit Report 05-20

Intelligence Analysts’ Level of Satisfaction

     We also asked intelligence analysts several questions designed to
gauge their job satisfaction, such as:

       •         level of contribution to the DEA’s mission;

       •         level of satisfaction as a DEA intelligence analyst; and

       30
          United States Department of Justice Office of the Inspector General, The Federal
Bureau of Investigation’s Efforts to Hire, Train, and Retain Intelligence Analysts, Audit
Report 05-20, May 2005.


                                               - 19 -
      •     level of intellectual challenge they receive from their work.

      The following chart shows that the majority of DEA intelligence
analysts reported their level of contribution to DEA’s mission as above
average.

    INTELLIGENCE ANALYSTS’ PERCEIVED CONTRIBUTION TO DEA’S MISSION
                                                  Average
                                                   18.3%

                                                            Below Average
                                                                4.3%
                                                             No Contribution
                Somewhat High                                     0.4%
                   37.4%




                                                      Very High
                                                       39.6%

      Source: OIG survey of DEA intelligence analysts

      However, 23 respondents (5 percent) rated their contribution to the
DEA’s mission as “below average” to “none.” Nineteen of these respondents
said they had no impact on the DEA mission or that they were underutilized
in their current positions and four respondents did not provide an
explanation .




                                         - 20 -
     The following chart shows the majority of DEA intelligence analysts are
generally satisfied in their position.

                     SATISFACTION AS AN INTELLIGENCE ANALYST


                                                               Satisfied
                                                                 47%




                  Very Satisfied
                       39%




                                                       Dissatisfied
                                   Very Dissatisfied
                                                          12%
                                          2%


     Source: OIG survey of DEA intelligence analysts

      However, 72 (14 percent) of the respondents reported they were less
than satisfied as DEA intelligence analysts. Only 68 of these respondents
provided an explanation for their dissatisfaction. Their explanations varied
greatly but generally fell within two areas: dissatisfaction with work
assignments and dissatisfaction with management or Special Agents.
Dissatisfaction with work included concerns such as:

     •     They were assigned work that was administrative in nature;

     •     Their work was repetitive;

     •     Their work was not challenging; and

     •     They were underutilized, or not functioning at full capacity.

Dissatisfaction with management and Special Agents included concerns such
as:

     •     Some intelligence analysts were given preferential treatment;

     •     Intelligence analysts were not given the same respect as Special
           Agents; and




                                           - 21 -
      •       Special agents and supervisors lacked the knowledge or
              experience needed to best utilize intelligence analysts or provide
              direction.

      The following chart shows that the vast majority of DEA intelligence
analysts reported they find their work challenging.


     INTELLECTUAL CHALLENGE TO THE INTELLIGENCE ANALYST POSITION

                        Somewhat
                                                    Not Very
                        Challenging
                                                   Challenging
                           25%
                                                      10%
                                                         Not At All
                                                        Challenging
                                                            1%



                                                        Very Challenging
                                                              22%



                     Challenging
                        42%


      Source: OIG survey of DEA intelligence analysts

      However, 54 (11 percent) of the respondents reported their work was
not intellectually challenging. Only 11 of these respondents provided an
explanation for why they did not find their work as a DEA intelligence analyst
challenging. Their reasons included that their work was routine or mundane,
they were underutilized, or their work was clerical in nature. The remaining
43 respondents did not provide an explanation.

Security Clearances

       According to DOJ Employment Security Regulations, all agency heads
are required to designate the sensitivity of all positions within their
organizations.31 The DEA determined that intelligence analyst positions are
“special sensitive” in an October 1999 decision paper. Special sensitive
positions within the DOJ are those positions that involve the highest degree

      31
           DOJ Order 2610.2A, Employment Security Regulations, §7.d



                                         - 22 -
of trust and require access, or afford ready opportunity to gain access, to
Top Secret National Security Information and material as described in
Executive Order 12356, or as amended.32 Therefore, according to the DEA
Deputy Chief of Intelligence, DEA intelligence analysts require Top Secret
security clearances.

      To obtain a Top Secret security clearance, DEA intelligence analysts
must undergo a background investigation. According to the DEA’s Office of
Security Programs, this process starts when an applicant submits his or her
background information into Office of Personnel Management’s (OPM)
Electronic Questionnaires for Investigations Processing (e-QIP) system and a
background investigation is scheduled. OPM is responsible for completing
the investigation and updates the status of each individual’s investigation in
the e-QIP system at the conclusion of the investigation. The DEA Security
Programs Manager reviews the results of the completed investigation,
determines if the applicant is eligible for a security clearance and, if eligible,
grants the clearance.

       DOJ Employment Security Regulations also state that special sensitive
positions require a full field reinvestigation “5 years after their appointment
and at least once each succeeding 5 years. . . .” According to the DEA
Associate Deputy Director of Security Programs, each intelligence analyst
with a security clearance must complete a reinvestigation every 5 years after
the date their last investigation was closed by OPM. The DEA Office of
Security Programs is responsible for monitoring the clearances granted to
intelligence analysts, and uses the date OPM closed an investigation as the
date to monitor and schedule the reinvestigation.

       In September 2007 we asked the Office of Security Programs to
provide a list of intelligence analyst security clearances. We received results
for 699 intelligence analysts. We performed limited testing from this list by
assessing from a judgmental sample if the DEA had met the requirements of
DOJ Employment Security Regulations. We determined that 82 of the 699
intelligence analysts did not have the required Top Secret clearances or a
reinvestigation within the last 5 years. The problems we identified included:

       •      1 intelligence analyst with no clearance,33


       32
         Executive Order 12356 prescribes a uniform system for classifying, declassifying,
and safeguarding national security information.
       33
          This intelligence analyst is assigned to the El Paso Intelligence Center. We
learned during our testing that this individual’s security file could not be located. We were
told the DEA has since initiated a new background investigation, but we were provided no
evidence to indicate the investigation was scheduled or actively ongoing.


                                            - 23 -
       •      19 intelligence analysts with Secret instead of the required Top
              Secret clearances, and

       •      62 intelligence analysts with Top Secret clearances who did not
              have a reinvestigation within the last 5 years.

      We also concluded that the information maintained by the Office of
Security Programs related to security clearances is not reliable. Some of the
issues identified with the data used by the DEA to monitor security
clearances included:

       •      inconsistent dates between Eagle Eye, the file records, and the
              information provided by the Office of Security Programs;34

       •      blank data fields within Eagle Eye such as Initial Clearance, Last
              Reinvestigation Date, and Next Reinvestigation Date;

       •      documents within the file records were not maintained
              consistently from one file to another; and

       •      no internal controls to ensure dates were correctly entered into
              Eagle Eye.

       We discussed our findings with the DEA Associate Deputy Chief
Inspector of Security Programs. She told us that in FY 2000, a decision was
made within the DEA to downgrade intelligence analysts’ security clearances
from top secret to secret as cost savings measure. She said that since that
time, the decision to downgrade security clearances has been changed and
all intelligence analysts affected by this decision will be upgraded to the Top
Secret level at the time of their next reinvestigation or when required by a
new assignment. She said that the Office of Security Programs was aware
of these Secret clearances and has been attempting to address the clearance
issues with the resources they have available.

      The Associate Deputy Chief Inspector also told us that the Office of
Security Programs can further reduce the number of intelligence analysts
without a current investigation by conducting a detailed research of Eagle
Eye, the file records, and OPM’s e-QIP system. In our judgment this is
impractical. The DEA should have one centralized reliable source for
information related to the security clearances of their personnel that is
accurate and up-to-date. Because our testing showed approximately 12
percent of DEA’s intelligence analysts security clearances did not meet the

       34
          Eagle Eye is the DEA’s database used for maintaining security clearance
information on its 20,000 employees and contractors.


                                          - 24 -
DEA’s security requirements, we are concerned that similar deficiencies may
exist in the approximately 19,300 clearances that we did not review.

Recommendations

     We recommend that the DEA:

1.   Develop a plan to ensure that the DEA meets its intelligence analysts
     hiring goal.

2.   Maintain an adequate applicant hiring pool for intelligence analysts.

3.   Continue the recently initiated practice of establishing annual hiring
     goals specifically for intelligence analysts.

4.   Consider reevaluating the Basic Intelligence Research Specialist
     training curriculum to determine if any classes could be taught through
     more economical means, such as web-based training or at field office
     locations.

5.   Establish an adequate system to monitor the status of the security
     clearances of intelligence analysts.

6.   Ensure that all intelligence analysts have required Top Secret
     clearances.

7.   Ensure that intelligence analysts undergo required security
     reinvestigations every 5 years.




                                   - 25 -
This page intentionally left blank




              - 26 -
2.    Quality, Usefulness, and Effectiveness of Intelligence
      Reports

            In general, the majority of both internal and external users
            were satisfied with the quality, usefulness, and
            effectiveness of the DEA’s intelligence products.
            Nevertheless, DEA internal users raised significant
            concerns related to excessive caseloads for intelligence
            analysts, how intelligence analysts were utilized, and
            timeliness of intelligence products. One factor that affects
            the timeliness and usefulness of intelligence products is
            the DEA’s internal review process for strategic intelligence,
            which is comprehensive but time-consuming. For
            example, it took an average of 21 months from the time
            intelligence was received until it was published in a
            strategic report. Additionally, we determined that reports
            officer cables containing terrorist-related information were
            not always transmitted to the appropriate agencies within
            the DEA’s goal of 24 to 48 hours because of a lengthy
            review process. As a result, the DEA’s internal and
            external users of its intelligence products did not always
            receive useful and effective intelligence information in a
            timely manner.

      The DEA utilizes various kinds of intelligence in its efforts to
investigate and prosecute drug offenders, disrupt and dismantle drug
organizations, and provide policymakers with drug-trend information upon
which programmatic decisions can be based. In addition, organizations in
the intelligence community, such as the CIA and the Department of State,
use the DEA’s intelligence in their operations.

       The DEA divides drug intelligence into three broad categories: tactical,
investigative, and strategic. Tactical intelligence is information on which
immediate enforcement action — arrests, seizures, and interdictions — can
be based. Tactical intelligence is perishable, time sensitive, and requires
immediate action. Investigative intelligence is analytical information that
provides support to investigations and prosecutions. Investigative
intelligence is used to dismantle criminal organizations and gain resources
through confiscation of drug trafficking assets. Strategic intelligence is
information that focuses on the broad picture of drug trafficking from
cultivation to distribution. The DEA’s strategic intelligence is usually
published in intelligence reports that are distributed to users in the
intelligence community and other law enforcement agencies. Another
mechanism for sharing DEA information is reports officer cables that contain
raw, unevaluated, confidential source data that can contribute to a better


                                    - 27 -
understanding of drug traffic. While this raw reporting can be used to
develop or support strategic assessments, it is not strategic intelligence.

      DEA intelligence analysts collect, analyze, and disseminate
drug-related intelligence information in reports to users both within and
outside of the DEA. The DEA also has four reports officers who review
incoming reports that have a foreign nexus and develop cables for
dissemination outside the DEA, including members of the intelligence
community.

Intelligence Analysts

       Intelligence analysts develop and analyze the three types of
intelligence discussed previously. Intelligence analysts may develop tactical
intelligence from a variety of sources, such as a confidential source
debriefing. The tactical intelligence developed by the intelligence analyst is
provided to a Special Agent, and may be used to take further action such as
an arrest, seizure, or confiscation of assets. Special Agents can also use
tactical intelligence to develop investigative intelligence, such as a Report of
Investigation, which supports the overall development of the case.35
Intelligence analysts also use tactical intelligence to develop other
investigative intelligence. For example, they may develop a Report of
Investigation or process and analyze tactical intelligence and attempt to
develop additional leads, or otherwise support the development of the case.
As new investigative intelligence is developed, intelligence analysts analyze
this information, identify trends, and prepare strategic intelligence reports
for use both within and outside the DEA.

Developing Tactical and Investigative Intelligence

       Depending on the needs of the case and the Special Agent, intelligence
analysts may participate in the investigation’s day-to-day activities to obtain
updated tactical and investigative information, as well as receive or provide
input on where to pursue further leads. Some intelligence analysts meet
almost daily with Special Agents to exchange information and receive further
direction. As part of their tactical and investigative efforts, intelligence
analysts can routinely conduct telephone number searches, analyze
telephone subscriber information, review wiretap intercepts, perform
financial data searches, analyze border crossing and international travel
information, and conduct public database record searches. Intelligence

       35
          A Report of Investigation, also commonly referred to as a DEA-6, details the
ongoing activity of a DEA case. For example, a DEA-6 may describe surveillance activity,
confidential source debriefings, or routine research documentation for the case file.



                                          - 28 -
analysts summarize the information and communicate the intelligence as
appropriate in Reports of Investigation, briefings, presentations, meetings,
e-mail, or by telephone.

      Intelligence analysts are not typically assigned to a DEA investigative
case at the beginning. Because the DEA has a caseload larger than the
number of intelligence analysts at each field office, the intelligence analyst is
usually assigned to a case when it is designated by the DEA as a Priority
Target Organization case. An intelligence analyst may be assigned three or
more Priority Target Organization cases at any one time. As part of working
the Priority Target Organization cases, intelligence analysts assist Special
Agents in developing investigative case files.

      DEA case files are developed for each investigation initiated. However,
DEA field office personnel told us that many of the intelligence analysts’
work products are not retained in the case file. For example, an intelligence
analyst may conduct an analysis on telephone toll records over several days
and determine a link between two or more drug traffickers. The intelligence
analyst then passes this information to the Special Agent, who initiates
surveillance of the individuals to confirm the relationship. The Special Agent
then documents the results of the surveillance in the case file without any
reference to the analysis performed by the intelligence analyst.

Value of Tactical and Investigative Intelligence

       In order to assess the value of the tactical and investigative
intelligence developed by intelligence analysts, we first reviewed a
judgmental sample of 26 Priority Target Organization case files closed from
October 1, 2005, through January 31, 2007, at the Dallas, Los Angeles, and
Miami field offices. As part of the 26 closed case files tested, we analyzed
the associated Reports of Investigation in each of these cases. However, we
found that the closed case files did not contain enough tactical or
investigative intelligence to reach a conclusion with respect to quality,
usefulness, and effectiveness of the intelligence analysts’ work.

      Therefore we examined responses from the survey of Special Agents
to assess the quality, usefulness, and effectiveness of intelligence analyst
products. We also conducted follow-up interviews with 24 intelligence
analysts and supervisors at the San Diego and New York field offices.

       Overall, the majority of Special Agents in our survey responded
positively to questions related to the accuracy, effectiveness, and timeliness
of intelligence analyst products used to support drug enforcement cases.
However, in some cases significant numbers of Special Agents expressed
concerns about intelligence analysts’ intelligence products and quality of


                                     - 29 -
work. In these instances, we requested a detailed explanation of their
concerns. Below are sample questions we asked Special Agents.

     1.    How often do intelligence analysts interpret intelligence data
           correctly and draw the right conclusions when providing
           intelligence to support drug enforcement cases?

     2.    How often do intelligence analysts produce timely intelligence to
           support drug enforcement cases?

     3.    How would you rate the effectiveness of the contributions
           provided by intelligence analysts regarding tactical intelligence?

     4.    How would you rate the effectiveness of the contributions
           provided by intelligence analysts regarding investigative
           intelligence?

     5.    To what extent do you believe the intelligence products produced
           by intelligence analysts are useful in supporting drug
           enforcement cases?

      Out of the 1,700 respondents, we received 1,518 answers to these 5
questions. The answers are summarized on the following pages.




                                   - 30 -
 A majority of Special Agents indicated intelligence analysts provide
 data correctly and draw the right conclusions “often” to “very often.”
 The following chart illustrates the survey responses we received
 regarding the frequency of intelligence analysts drawing correct
 conclusions when providing intelligence.

FREQUENCY OF CORRECT INTERPRETATIONS OF INTELLIGENCE DATA AND
       ACCURATE CONCLUSIONS BY INTELLIGENCE ANALYSTS

                                  50%




                                                                 Often
                                                                 40%
                                  40%




                                           Very Often
     Percent of Total Responses




                                              31%
                                  30%

                                                                                       Sometimes
                                                                                         23%

                                  20%




                                  10%
                                                                                                               Rarely
                                                                                                                6%



                                  0%

                                                        Frequency of Correct Interpretations and Conclusions

 Source: OIG survey of DEA Special Agents

 The explanations provided by the Special Agents who responded
 “rarely” fell into three broad categories:

 •                                      There were not enough intelligence analysts to support the
                                        amount of work or they were not utilized properly. For example,
                                        analysts were given too many administrative tasks;

 •                                      Although intelligence analysts provided basic raw data, they did
                                        not provide detailed analysis or intelligence; and

 •                                      Intelligence analysts lacked the knowledge or understanding to
                                        support the casework.




                                                                         - 31 -
A majority of Special Agents indicated intelligence analysts provide
timely intelligence “often” to “very often.” The following chart
illustrates the survey responses we received in regard to the timeliness
of intelligence

                                            TIMELINESS OF INTELLIGENCE ANALYSTS’ PRODUCTS
                                 45%
                                                            Often
                                                            40%
                                 40%



                                 35%

                                                                             Sometimes
    Percent of Total Responses




                                 30%                                           28%
                                          Very Often
                                 25%
                                             23%

                                 20%



                                 15%

                                                                                                    Rarely
                                 10%                                                                 8%

                                 5%
                                                                                                             Never
                                                                                                              1%
                                 0%
                                                               Frequency of Timely Intelligence Products

                                       Source: OIG survey of DEA Special Agents

The explanations provided by the Special Agents who responded
“rarely” and “never” fell into two categories:

•                                      Intelligence analysts seemed unsure of their role in casework
                                       and were poorly supervised; and
•                                      Intelligence analysts had excessive caseloads or were unable to
                                       prioritize their workload effectively.




                                                                    - 32 -
A majority of Special Agents indicated the effectiveness of tactical
intelligence by intelligence analysts was “above average” to
“excellent.” The following chart illustrates the survey responses we
received regarding the effectiveness of tactical intelligence.

EFFECTIVENESS OF INTELLIGENCE ANALYSTS’ CONTRIBUTIONS TOWARDS
        TACTICAL DRUG ENFORCEMENT CASES AND PROGRAMS


                                                Above Average
                                                    31%
                                    Excellent
                                                                      Average
                              30%     29%
                                                                        28%
 Percent of Total Responses




                              20%




                              10%
                                                                                        Below Average
                                                                                             8%

                                                                                                        Poor
                                                                                                         4%


                              0%
                                                    Effectiveness of Tactical Intelligence Products

Source: OIG survey of DEA Special Agents




                                                                    - 33 -
As shown in the following chart, a majority of Special Agents also felt
that intelligence analysts’ investigative intelligence was “excellent” or
“above average.”

EFFECTIVENESS OF INTELLIGENCE ANALYSTS’ CONTRIBUTIONS TOWARDS
     INVESTIGATIVE DRUG ENFORCEMENT CASES AND PROGRAMS



                              40%


                                                    Above Average
                                                        33%
                                        Excellent
                                          30%
                              30%
                                                                            Average
                                                                              27%
 Percent of Total Responses




                              20%




                                                                                             Below Average
                              10%
                                                                                                  8%


                                                                                                              Poor
                                                                                                               2%
                              0%
                                                       Effectiveness of Investigative Intelligence Products

                                          Source: OIG survey of DEA Special Agents

The explanations provided by Special Agents who responded “poor” for
both tactical and investigative intelligence included:

                              •     Intelligence analysts did not produce tactical intelligence;

                              •     Intelligence analysts were unsure of their role in casework and
                                    were poorly supervised; and

                              •     Intelligence analysts had excessive caseloads and were assigned
                                    too many administrative tasks.




                                                                - 34 -
      Almost all Special Agents believed intelligence analysts’ products were
      useful in supporting drug enforcement cases. The following chart
      illustrates the survey responses regarding usefulness of intelligence
      products in supporting the DEA mission.

                 USEFULNESS OF INTELLIGENCE ANALYSTS’ PRODUCTS
                                     Moderate
                        Great         Extent
                        Extent         44%
                40%      38%



                                                    Small
                                                    Extent
                20%                                  17%



                                                              Not At All
                                                                 1%
                 0%


                   Source: OIG survey of DEA Special Agents

      The explanations provided by the Special Agents who responded “not
      at all useful” include:

         •   Intelligence analysts did not conduct enough analysis and
             focused too much on data entry;
         •   Intelligence analysts lacked knowledge to produce useful
             intelligence or provided intelligence the Special Agents could
             obtain on their own; and
         •   Intelligence analysts did not provide timely intelligence.

       To further assess the quality, usefulness, and effectiveness of
intelligence products, we asked the Special Agents if they were aware of any
backlog of intelligence data to be processed or analyzed by an intelligence
analyst. Seventy-three percent indicated they were not aware of any
backlog, while 27 percent responded they were aware of a backlog. The
respondents who were aware of the backlog provided various explanations
for the backlog. The responses generally indicated that a backlog existed
because intelligence analysts were overworked. However, none of the
intelligence analysts we interviewed at field offices in San Diego or New York
indicated that they were overwhelmed by their workload. Intelligence



                                       - 35 -
analysts also told us that there was no method for tracking or documenting
a backlog of intelligence data. They said they were responsible for
prioritizing their work and accomplishing what was necessary to support the
cases assigned to them.

Developing Strategic Intelligence

       The DEA’s Office of Strategic Intelligence is responsible for preparing
reports that focus on the broad issues of drug trafficking, from cultivation to
distribution. Intelligence analysts in this office review DEA reporting, in
combination with other law enforcement, intelligence community, and open
source information, and develop long-term analyses and trends to assist
drug law enforcement authorities. This office produces a variety of strategic
reports including:

      •      Activity of Interest Reports - Summaries of reports of
             investigation that are disseminated to specific groups of DEA
             personnel to notify them of an important fact or development in
             their area of responsibility.

      •      Blue Notes - Administrative reports for the use of Intelligence
             Division management.

      •      White Notes - Administrative reports for the use of DEA
             executive management in policy decisions or congressional
             reporting.

      •      Emerging Threat and Predictive Intelligence Reports – Reports
             that focus on a specific area or drug trend that the Domestic
             Strategic Intelligence Unit has identified. These reports are used
             by the DEA, members of the intelligence community, and local
             law enforcement to help identify new developments in their
             areas of responsibility.

      •      Domestic Monitoring Program - Annual report on trends related
             to heroin in the United States.36




      36
           The Domestic Monitoring Program is a street-level drug purchase program.
Heroin is purchased by law enforcement personnel and the DEA and sent to a drug lab for
analysis.


                                         - 36 -
Value of Strategic Intelligence

       To determine the quality, usefulness, and effectiveness of DEA
intelligence products, we interviewed representatives from four external
organizations that use these intelligence products: the CIA, the Defense
Intelligence Agency (DIA), the Department of State, and the Office of the
Director of National Intelligence (ODNI). Officials from these agencies told
us that, in general, the DEA’s intelligence products were valuable and useful.
According to the CIA official we interviewed, the CIA uses the DEA’s
intelligence products in its policy sections to further relationships with
individual countries’ local liaisons and police forces to support prosecutions.
Officials at the DIA told us that the DEA’s intelligence products are well-
written, valuable, and appear to be fully researched. The Department of
State’s Deputy Assistant Secretary for Intelligence said that the DEA’s
intelligence products are valuable, reliable, and useful and that the
Department of State relies heavily on DEA intelligence products.

      ODNI’s Assistant Deputy Director for Analytic Community Support told
us that ODNI uses the strategic information available on the DEA’s website.
Like the Department of State, the Assistant Deputy Director said that this
information is valuable because DEA agents on the street have first-hand
knowledge of drug-related activities allowing them to identify connections
between drugs and crime. This official told us that the DEA’s products were
logical, of good quality, and of a tactical nature. He added that the reports
are clear and the material is believable and self-explanatory.

       We asked the DEA Domestic Strategic Intelligence Unit Section Chief if
the DEA has utilized customer surveys within the strategic intelligence
reports. She told us that the DEA previously included customer surveys as
part of the strategic reports, but surveys have not been included in the
reports since about 2003. She also told us that she receives feedback from
the users of the DEA’s intelligence products through informal methods such
as telephone, e-mail, and indirect correspondence. She said that these
comments are rare, but they are generally positive. As of June 2007,
according to the Deputy Chief of Intelligence, the DEA has developed a
customer survey that is included in the intelligence products and the DEA
will begin to evaluate the feedback received from customers in the future.

      We also reviewed 16 strategic reports produced by the Domestic
Strategic Intelligence Unit for timeliness of issuance and found that there is
a lengthy internal review process. All of the strategic intelligence reports we
tested were published, on average, about 21 months after the source
information was first observed by the DEA. During discussions with the
Section Chief of Domestic Strategic Intelligence, she told us the DEA’s
internal review process is comprehensive and time-consuming. She further


                                    - 37 -
stated that the DEA’s review process is necessary to ensure the information
it produces for the general public is factual. Although we recognize the
importance of the review process, we are concerned about the length of time
it takes to publish these reports. Factual information may not be useful if it
is not available in a timely manner. In our opinion, it is important for the
DEA to continue to evaluate the methods used to produce and review
strategic intelligence reports and to ensure they are produced in a more
timely manner.

Reports Officers

      As discussed earlier, the DEA has four reports officers who review
incoming investigation reports that have a foreign nexus. Reports officers
also develop cables for dissemination outside the DEA, including to members
of the intelligence community. Reports officers prepared and disseminated
more than 4,500 cables between June 2004 and June 2007. The cables are
written each day by the reports officers after they review new DEA reporting
retrieved from the DEA Communications Center. The Communications
Center ensures that incoming cables are not administrative cables or cables
for general dissemination throughout the DEA. Reports officers are
responsible for:

      •     reviewing DEA reporting each day for content relevant to foreign
            intelligence,

      •     developing cables that reflect the foreign intelligence data
            without jeopardizing ongoing investigations in the DEA, and

      •     disseminating cables to the assigned agencies within the
            intelligence community.

      Reports officer cables are generally written within 24 hours of receipt
of the incoming DEA reporting and are forwarded to the Policy and Liaison
Section Chief for review. The Policy and Liaison Section Chief then forwards
the cable to various departments within the DEA for review and approval.
Once approved by the DEA Deputy Chief of Intelligence, the cables are sent
to the Communications Center for transmission to the recipients.

      According to the Section Chief, most reports officer cables should be
reviewed and disseminated within 3 to 6 weeks. However, according to the
Chief of Intelligence, when reports officers receive information related to
terrorism, weapons, or a foreign country’s military, the cable should be
prepared and disseminated to the intelligence community within 24 to 48
hours of receipt.



                                    - 38 -
       Our interviews found that the reports officer cable review and approval
process is very time-consuming. Once the cables are completed by the
reports officers, they are reviewed by the supervisor and manually
distributed through the DEA for additional review and approval. Some of the
departments included in the review are the originating office, Enforcement
Operations, Special Intelligence, and Financial Intelligence. The Policy and
Liaison Section Chief told us the reports officer cables rarely have
substantive changes. According to DEA officials, the reason for this review is
to ensure the cables do not contain any information that may jeopardize an
on-going investigation or put a Special Agent at risk. The Policy and Liaison
Section Chief told us that the DEA does not have written procedures
delineating this process.

DEA Releases Terrorism Cables Untimely

      Of the 4,500 cables prepared by the reports officers since June 2004,
we selected a judgmental sample of 81 cables to review. Our testing
showed that these cables were transmitted outside the DEA on average in
34 days from the date the original cable was received by the DEA. Three of
the 81 cables we tested were related to terrorism and met the criteria for
expedited processing. However, none of the three terrorism-related cables
were transmitted to the appropriate agencies within the goal of the 24- to
48-hour timeframe. Instead, these three reports officer cables were not
transmitted until 39, 44, and 76 days after preparation.37

       We discussed this with the DEA Chief of Intelligence, who assured us
that although the cables were not transmitted timely, this information was
nevertheless immediately passed informally to the appropriate agencies.
However, in our judgment, this informal method of passing along crucial
information does not provide assurance that all responsible parties were
notified, that sufficient details were provided, or that the information was
disseminated appropriately. While we understand the need to properly
review cables, we are concerned that the highest priority cables were not
transmitted to the appropriate agencies expeditiously.




       37
            One cable was related to Stinger missiles and other heavy arms for sale through
a commander of a terrorist group with the intention of harming coalition forces. The other
two cables were related to Taliban activity involving drug trafficking to finance terrorist
activities and the identification of significant terrorist cell training and operations in a
specific district of Afghanistan.


                                           - 39 -
Value of Reports Officer Cables

      All of the external users we interviewed reported that DEA intelligence
reports were of high quality. However, they reported that the usefulness
and effectiveness of the DEA’s products varied depending on the needs of
the user and how the intelligence was being used.

      Central Intelligence Agency

       The CIA Director of the Crime and Narcotics Center stated that the
agency is extremely interested in raw intelligence such as the reports officer
cables. He said the intelligence provided by the DEA is invaluable because it
is the only source for the type of information provided, often corroborating
data previously gathered by the CIA or filling a gap in existing intelligence
data. The CIA shares this information with its agents stationed around the
world. However, this official also said that there is a consistent, significant
delay in receiving information from the DEA, which can negatively affect CIA
operations.

      Defense Intelligence Agency

       The DIA Director for Counter Narcotics told us that the DEA’s products
are well-written, valuable, and seem to be fully researched. However, he
also stated that the DEA has the challenge of adequately sourcing its
intelligence. The DIA Director said the DEA must be able to provide
adequate context regarding the sources of its intelligence to provide a level
of reliability to its users. The DIA Director also expressed concern regarding
the timeliness of the information received from the DEA.

      Department of State

       The Department of State Deputy Assistant Secretary for Intelligence
said that the DEA’s products are valuable, reliable, and useful, and that the
State Department relies heavily on DEA reports. This official also said that
the Department of State uses DEA reports to corroborate other reported
intelligence and that the information included in DEA reports officer cables is
invaluable because DEA agents on the street have first-hand knowledge of
drug-related activities. The Deputy Assistant Secretary told us that the DEA
reports contribute to new ideas on how to proceed against new
circumstances, such as Internet drug sales.




                                    - 40 -
Recommendations

     We recommend that the DEA:

8.   Ensure that the customer surveys recently incorporated with the
     intelligence reports are utilized to assess and evaluate the quality,
     usefulness, and effectiveness of each product.

9.   Develop a process for reviewing and transmitting reports officer
     cables, especially terrorist-related cables, in a more timely manner.




                                    - 41 -
This page intentionally left blank




              - 42 -
              STATEMENT ON INTERNAL CONTROLS


      In planning and performing our audit, we examined how effectively the
DEA recruits, trains, and retains its intelligence analysts, and the quality,
usefulness, and effectiveness of the DEA’s intelligence products. We
considered management’s controls, decisions, policy, directives, and
feedback from users of DEA reports for the purposes of determining our
auditing procedures. The evaluation of internal controls was not made for
the purpose of providing assurance on the DEA’s internal control structure as
a whole.

      Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the internal control
structure that, in our judgment, could adversely affect the DEA’s ability to
recruit, train, and retain intelligence analysts and to produce quality, useful,
and effective intelligence reports. As discussed in the Findings and
Recommendations section of our report, we found issues relating to the
DEA’s weaknesses in the monitoring of intelligence analysts’ security
clearances and the procedures for sharing DEA cables with other federal
agencies.

       Because we are not expressing an opinion on the DEA’s internal
control structure as a whole, this statement is intended solely for the
information and use of the DEA. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                     - 43 -
This page intentionally left blank




              - 44 -
                STATEMENT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS


       We audited the DEA’s management of the hiring, training, and
retention of intelligence analysts and reviewed the quality, usefulness, and
effectiveness of DEA intelligence reports and related products. As part of
our audit, we interviewed management, intelligence analysts, and Special
Agents, and we reviewed the DEA’s data to obtain reasonable assurance that
the DEA had complied with certain laws and regulations that could have a
material effect on their overall operations. Compliance with laws and
regulations applicable to the management of intelligence analysts is the
responsibility of DEA management.

      Our audit included examining, on a test basis, evidence about
compliance with applicable federal laws, regulations, and DOJ policies
contained in or referred to in the relevant portions of Title 21, United States
Code and relevant sections of DOJ Order 2610.2A, Employment Security
Regulations, and Presidential Executive Order 12958.

       As discussed in the Findings and Recommendations section of our
report, we identified a finding relating to the DEA’s weaknesses in the
monitoring of intelligence analysts’ security clearances. Otherwise, the DEA
was in compliance with relevant portions of laws, regulations, and DOJ
policies referred to above. With respect to those transactions not tested,
nothing came to our attention that caused us to believe that the DEA was
not in compliance with the law stated above.




                                     - 45 -
This page intentionally left blank




              - 46 -
                                                                  APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

       The Department of Justice Office of the Inspector General conducted
this audit to determine: (1) how effectively the DEA recruits, trains, and
retains intelligence analysts, and (2) the quality, usefulness, and
effectiveness of the DEA’s intelligence reports and related products.

Scope and Methodology

       Generally, our audit covered the period from FY 2004 through March of
FY 2008. As part of the audit, we reviewed applicable sections of 21 U.S.C.,
regulations, and the DEA’s policies and procedures applicable to hiring,
training, and retention of intelligence analysts along with the quality,
usefulness, and effectiveness of the DEA’s intelligence reports and related
products produced by intelligence analysts and reports officers.

       We conducted our audit in accordance with the generally accepted
Government Auditing Standards and reviewed data and performed tests
necessary to accomplish the audit objectives. In connection with the audit,
as required by the Standards, we reviewed: (1) selected portions of the
DEA Agents Manual; DEA’s policy orders, criteria, and curriculum for the
intelligence analysts’ basic training program; and a sample of the DEA’s
strategic reports and reports officer cables; (2) interviewed selected officials
within the DEA’s Intelligence Division; and (3) transmitted web-based
questionnaires to 675 intelligence analysts and 4,843 Special Agents
inquiring about their hiring, training, and retention experience in the DEA,
along with questions to Special Agents about the effectiveness of
contributions by intelligence analysts, whether their products were useful
and timely, and a question about resource requirements.

      We interviewed officials from the DEA’s Intelligence Division, the Office
of Training, the Human Resources Division, Office of Finance, and the Office
of Inspections. We also received briefings from the Organized Crime Drug
Enforcement Task Force Fusion Center, the El Paso Intelligence Center, the
Special Operations Division, and the Office of Special Intelligence.
Furthermore, we interviewed key users of DEA’s strategic reports and
reports officer cables at the Central Intelligence Agency, the Department of
State, the Defense Intelligence Agency, and the Office of the Director of
National Intelligence. In addition, we performed on-site audit work at the
following DEA locations:




                                     - 47 -
                                                                  APPENDIX I


                    DEA Field Sites Selected for Audit

          Office                                 Location
     DEA Headquarters                          Washington, D.C.
     DEA Office of Training                    Quantico, VA
     Dallas Field Office                       Dallas, TX
     Houston Field Office                      Houston, TX
     Los Angeles Field Office                  Los Angeles, CA
     Miami Field Office                        Miami, FL
     New York Field Office                     New York, NY
     San Diego Field Office                    San Diego, CA
    Source: OIG

Analysis and Testing

       To determine how effectively the DEA recruits, trains, and retains
intelligence analysts, we:

      •     Conducted interviews with DEA officials responsible for
            recruiting, training, and retaining intelligence analysts;

      •     Obtained and reviewed supporting data reflecting the practices
            used to recruit and train intelligence analysts;

      •     Obtained and reviewed the attrition rates for DEA intelligence
            analysts for the past 3 fiscal years;

      •     Reviewed the contract and statement of work regarding the
            requirements for report officers;

      •     Obtained and reviewed supporting data reflecting the BIRS
            training classes conducted at the DEA Training Academy in
            Quantico, Virginia;

      •     Discussed with DEA training management the three levels of
            BIRS course evaluations conducted or planned;

      •     Obtained and reviewed the Intelligence Analyst Mentoring
            Program Handbook;

      •     Obtained and reviewed various DEA policy orders and applicable
            portions of the DEA agents manual;

      •     Obtained and reviewed DEA’s staffing and budget data from
            FY 2004 to FY 2007;



                                     - 48 -
                                                         APPENDIX I


•   Obtained and reviewed supporting data for intelligence analyst
    security clearance levels;

•   Obtained and reviewed the intelligence program’s budget
    justifications for FYs 2007 and 2008;

•   Interviewed a sample of field intelligence managers, group
    supervisors, intelligence analysts, and Special Agents at the
    Dallas, Miami, and Los Angeles Field Offices to inquire about
    tactical, investigative, and strategic intelligence;

•   Interviewed SACs, ASACs, field intelligence managers, group
    supervisors, Special Agents, and intelligence analysts at the
    Dallas, Miami, and Los Angeles Field Offices regarding the
    intelligence contained in DEA closed case files;

•   Reviewed a total of 26 DEA closed case files at the Dallas, Miami,
    and Los Angeles Field Offices to determine the types and content
    of intelligence produced by intelligence analysts;

•   Reviewed a total of 1,860 Reports of Investigation in closed case
    files in the Dallas, Miami, and Los Angeles Field Offices to
    determine how many were prepared by intelligence analysts.
    The number of reports were then compared to the hours charged
    to the case file to justify the hours worked;

•   Obtained and reviewed the SMARTS Work Hour Analysis from
    DEA domestic field offices to determine what percentage of time
    intelligence analysts used to conduct strategic and investigative
    work in FY 2006;

•   Interviewed SACs, ASACs, a field intelligence manager, group
    supervisors, intelligence analysts, and Special Agents at the
    San Diego and New York Field Offices to inquire about the
    benefits of the previous BIRS training and the BIRS 14-week
    training class in July 2007;

•   Obtained and reviewed the DEA’s Intelligence Top Down Review
    developed in 2004 by a private company; and

•   Obtained a list of DEA databases utilized by intelligence analysts
    in the analysis of intelligence.




                            - 49 -
                                                                 APPENDIX I


      To determine the quality, usefulness, and effectiveness of intelligence
      reports and related products produced by intelligence analysts and
      reports officers, we performed the following:

      •     Obtained briefings from the Intelligence Division, Special
            Operations Division, Special Intelligence, Organized Crime Drug
            Enforcement Task Force Fusion Center, and the El Paso
            Intelligence Center, among others.

      •     Interviewed DEA headquarters staff about the strategic reports
            produced by intelligence analysts.

      •     Reviewed 16 strategic reports produced by intelligence analysts
            at the DEA headquarters’ Domestic Strategic Unit to determine
            the content and information produced.

      •     Sampled and tested 81 reports officer cables, from a universe of
            393, over 4 different months from March 2006 through February
            2007. We tested the time-line to produce and distribute the
            cables and the content of the reports officer cables compared to
            the original DEA Reports of Investigation.

      •     Obtained and reviewed Monthly Activity Reports from the Los
            Angeles Field Office to determine some of the performance
            measures used to evaluate the quality and effectiveness of
            intelligence analyst products.

      •     Interviewed officials at the Central Intelligence Agency, the
            Department of State, the Defense Intelligence Agency, and the
            Office of the Director of National Intelligence concerning use of
            DEA’s strategic reports and reports officer cables.

      We also developed a survey that consisted of 69 questions that we
sent to 675 DEA intelligence analysts (GS-132 series). We received a total
of 487 survey responses, a 72 percent response rate. In addition, we
developed a survey that consisted of 14 questions that we sent to 4,843 DEA
Special Agents (GS-1811 series). We received a total of 1,700 survey
responses, a 35 percent response rate. We summarized the responses and
calculated frequency tables for each survey. Each questionnaire also
included open-ended questions that were not included in the compilation of
the frequency tables. We analyzed, summarized, and reported pertinent
results from these survey questionnaires.

      Finally, because of DEA’s sensitivity concerns about open case files, we
limited our review to closed case files. Accordingly, we express no opinion
on active cases.


                                    - 50 -
                                                     APPENDIX II


                      ACRONYMS

ASAC    Assistant Special Agent-in-Charge
BIRS    Basic Intelligence Research Specialist
CIA     Central Intelligence Agency
DIA     Defense Intelligence Agency
DEA     Drug Enforcement Administration
DOJ     Department of Justice
e-QIP   Electronic Questionnaires for Investigations Processing
FBI     Federal Bureau of Investigation
FTE     Full Time Equivalent
FY      Fiscal Year
ODNI    Office of the Director of National Intelligence
OIG     Office of the Inspector General
OPM     Office of Personnel Management
SAC     Special Agent-in-Charge




                          - 51 -
                                                                APPENDIX III



                        DEA DOMESTIC DIVISIONS


      Organizationally, the DEA has 227 domestic field offices in 21 divisions
throughout the continental United States and its territories. The Intelligence
Division has intelligence analysts located in 103 of the domestic field offices.
The map below shows the divisions in the United States, each represented
by a separate color.




                                     - 52 -
                                                                      APPENDIX IV



                       INTELLIGENCE ANALYSTS
                IN DOMESTIC FIELD OFFICES BY LOCATION


                                                       Intelligence Analysts Onboard
                    Location                                  as of August 2007
Headquarters
      Office of Professional Responsibility (OPR)                   3
                         Office of Inspections (IN)                 1
                            Office of Training (TR)                 8
          Office of Enforcement Operations (OE)                     5
                         Intelligence Division (NC)                 8
    Office of Intel. Policy and Management (NP)                     5
             Office of Strategic Intelligence (NT)                  28
         Office of Investigative Intelligence (NI)                  28
               Office of Special Intelligence (NS)                  61
    Office of National Security Intelligence (NN)                   10
Field Support
                             Aviation Division (OA)                 5
                 El Paso Intelligence Center (NE)                   41
Organized Crime Drug Enforcement Task Force
                                  Fusion Center(NF)                 31
Atlanta Division
                       Atlanta, GA Division Office                  18
                  Charleston, SC Resident Office                    1
                      Charlotte, NC District Office                 2
                      Columbia, SC District Office                  1
                      Nashville, TN District Office                 1
                      Raleigh, NC Resident Office                   1
Boston Division
                        Boston, MA Division Office                  11
                      Hartford, CT Resident Office                  1
                    New Haven, CT District Office                   1
                   Providence, RI Resident Office                   1
                  Springfield, MA Resident Office                   1
Chicago Division
                        Chicago, IL Division Office                 14
                   Indianapolis, IN District Office                 1
                    Merrillville, IN Resident Office                2
                     Milwaukee, WI District Office                  1
         Minneapolis/St. Paul, MN District Office                   1
                    Springfield, IL Resident Office                 2
Dallas Division
                          Dallas, TX Division Office                14
                   Fort Worth, TX Resident Office                   1
                Oklahoma City, OK District Office                   2


                                          - 53 -
                                                            APPENDIX IV




Denver Division
                       Denver, CO Division     Office   8
                      Billings, MT Resident    Office   1
                Salt Lake City, UT District    Office   1
          Colorado Springs, CO Resident        Office   1
Detroit Division
                        Detroit, MI Division   Office   10
                  Cincinnati, OH Resident      Office   1
                   Cleveland, OH Resident      Office   2
                   Lexington, KY Resident      Office   1
                      London, KY Resident      Office   2
                       Toledo, OH Resident     Office   1
El Paso Division
                        El Paso, TX Division   Office   8
                 Albuquerque, NM District      Office   2
                        Alpine, TX Resident    Office   1
                 Las Cruces, NM Resident       Office   1
                      Midland, TX Resident     Office   1
Houston Division
                      Houston, TX Division     Office   14
                        Austin, TX Resident    Office   2
                 Brownsville, TX Resident      Office   1
              Corpus Christi, TX Resident      Office   1
                  Eagle Pass, TX Resident      Office   1
                         Laredo, TX District   Office   4
                        McAllen, TX District   Office   4
                  San Antonio, TX District     Office   6
Los Angeles Division
                 Los Angeles, CA Division      Office   24
                       Honolulu, HI District   Office   2
                     Las Vegas, NV District    Office   3
                         Reno, NV Resident     Office   1
                      Riverside, CA District   Office   2
             Orange County, CA Resident        Office   1
Miami Division
                          Miami, FL Division   Office   15
                Ft. Lauderdale, FL District    Office   5
                   Ft. Meyers, FL Resident     Office   1
                   Jacksonville, FL District   Office   3
                        Orlando, FL District   Office   3
                    Pensacola, FL Resident     Office   1
                         Tampa, FL District    Office   5
Newark Division
                       Newark, NJ Division     Office   10




                                         - 54 -
                                                         APPENDIX IV




New Orleans Division
                 New Orleans, LA Division Office     11
                Birmingham, AL Resident Office       1
                     Fort Smith, AR Post of Duty     1
                    Gulfport, MS Resident Office     1
                      Jackson, MS District Office    1
New York Division
                    New York, NY Division Office     31
                        Albany, NY District Office   2
                      Buffalo, NY Resident Office    1
Philadelphia Division
                 Philadelphia, PA Division Office    9
                   Allentown, PA Resident Office     1
                    Pittsburgh, PA District Office   1
                 Wilmington, DE Resident Office      1
Phoenix Division
                      Phoenix, AZ Division Office    6
                     Nogales, AZ Resident Office     1
                 Sierra Vista, AZ Resident Office    1
                        Tucson, AZ District Office   5
                       Yuma, AZ Resident Office      1
San Diego Division
                        San Diego Division Office    16
                    Carlsbad, CA Resident Office     1
           Imperial County, CA Resident Office       3
                  San Ysidro, CA Resident Office     2
San Francisco Division
               San Francisco, CA Division Office     8
                      Fresno, CA Resident Office     2
                     Oakland, CA Resident Office     1
                  Sacramento, CA District Office     3
                    San Jose, CA Resident Office     1
Seattle Division
                      Seattle, WA Division Office    8
                    Anchorage, AK District Office    1
                      Blaine, WA Resident Office     1
                        Boise, ID Resident Office    1
                     Eugene, OR Resident Office      1
                      Portland, OR District Office   3
St. Louis Division
                    St. Louis, MO Division Office    10
                  Des Moines, IA Resident Office     1
                  Kansas City, KS District Office    2
                       Omaha, NE District Office     1




                                        - 55 -
                                                                  APPENDIX IV




Washington Division
               Washington, DC Division Office                10
                  Baltimore, MD District Office              4
                    Norfolk, VA Resident Office              1
                   Richmond, VA District Office              2
Caribbean Division
                   San Juan, PR Division Office              13
                St. Thomas, VI Resident Office               1
                           DOMESTIC TOTAL                   633
Source: DEA, Intelligence Division, Management and Production Support Section




                                      - 56 -
                            APPENDIX V




DEA FOREIGN FIELD OFFICES




          - 57 -
                                                                    APPENDIX VI




                      INTELLIGENCE ANALYSTS
               IN FOREIGN FIELD OFFICES BY LOCATION



                Location                          IAs Onboard As of August 2007
Europe & Africa Region
           Brussels, Belgium Country     Office                 1
               Madrid, Spain Country     Office                 1
                Paris, France Country    Office                 1
                 Rome, Italy Country     Office                 1
    The Hague, Netherlands Country       Office                 1
Middle East Region
             Ankara, Turkey Country      Office                 1
            Istanbul, Turkey Resident    Office                 1
              Athens, Greece Country     Office                 1
Dubai, United Arab Emirates Country      Office                 1
         Peshawar, Pakistan Resident     Office                 1
             Moscow, Russia Country      Office                 1
Far East Region
          Bangkok, Thailand Country      Office                 4
      Chiang Mai, Thailand Resident      Office                 2
                  Hong Kong Country      Office                 1
                   Singapore Country     Office                 1
Southern Cone Region
              Brasilia, Brazil Country   Office                 2
           Sao Paulo, Brazil Resident    Office                 1
    Buenos Aires, Argentina Country      Office                 1
              La Paz, Bolivia Country    Office                 2
      Cochabamba, Bolivia Resident       Office                 1
        Santa Cruz, Bolivia Resident     Office                 1
Andean Region
           Bogota, Colombia Country      Office                 9
       Cartagena, Colombia Resident      Office                 3
         Caracas, Venezuela Country      Office                 1
                  Lima, Peru Country     Office                 1
              Quito, Ecuador Country     Office                 1
Central America Region
 Guatemala City, Guatemala Country       Office                 1
       Managua, Nicaragua Country        Office                 1
        Mexico City, Mexico Country      Office                 7
     Ciudad Juarez, Mexico Resident      Office                 1
        Guadalajara, Mexico Resident     Office                 1


                                         - 58 -
                                                                 APPENDIX VI




Central America Region Continued
         Hermosillo, Mexico Resident Office                 1
          Mazatlan, Mexico Resident Office                  1
         Monterrey, Mexico Resident Office                  1
           Tijuana, Mexico Resident Office                  1
     Panama City, Panama Country Office                     2
       San Jose, Costa Rica Country Office                  1
Other Foreign
          Nassau, Bahamas Country Office                     1
 Santo Domingo, Dom. Rep. Country Office                     1
                     FOREIGN SUMMARY                        62

Source: DEA, Intelligence Section, Management and Production Support Section




                                     - 59 -
This page intentionally left blank




              - 60 -
         APPENDIX VII




- 61 -
         APPENDIX VII




- 62 -
         APPENDIX VII




- 63 -
         APPENDIX VII




- 64 -
         APPENDIX VII




- 65 -
         APPENDIX VII




- 66 -
         APPENDIX VII




- 67 -
         APPENDIX VII




- 68 -
         APPENDIX VII




- 69 -
         APPENDIX VII




- 70 -
         APPENDIX VII




- 71 -
         APPENDIX VII




- 72 -
                                                               APPENDIX VIII


       OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
     SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the DEA for review and
comment. The DEA’s written response is included in Appendix VII of this
final report. The DEA concurred with all of the recommendations in the audit
report. Our analysis of the DEA’s response and a summary of actions
necessary to close each recommendation are below.

Status of Recommendations:

1.    Resolved. The DEA concurred with our recommendation to develop a
      plan to ensure that the DEA meets its intelligence analysts hiring goal.

      This recommendation can be closed when the DEA provides the OIG
      with a copy of its plan to ensure that the DEA meets its intelligence
      analyst hiring goal and supporting documentation that the DEA has
      implemented this plan.

2.    Resolved. The DEA concurred with our recommendation to maintain
      an adequate applicant hiring pool for intelligence analysts. The DEA
      stated that the Intelligence Division will monitor projected attrition
      rates of DEA intelligence analysts, will identify qualified applicants with
      existing U.S. Government security clearances, and will expect to be at
      the 3-1 ratio of applicants to hire within 6 months.

      This recommendation can be closed when the OIG receives the DEA’s
      projected number of new hires for intelligence analysts and attrition
      rate through the end of FY 2008 and a report containing the number of
      applicants in its hiring pool for intelligence analysts during the same
      period.

3.    Resolved. The DEA concurred with our recommendation to continue
      its practice of establishing annual hiring goals specifically for
      intelligence analysts.

      This recommendation can be closed when the OIG receives adequate
      supporting documentation that the DEA has established a separate
      hiring goal for intelligence analysts in FY 2008 and will continue to do
      so in future years.

4.    Resolved. The DEA concurred with our recommendation to consider
      re-evaluating the Basic Intelligence Research Specialist (BIRS) training
      curriculum to determine if any classes could be taught through more
      economical means, such as web-based training or at field office


                                       73
                                                            APPENDIX VIII


     locations. The DEA stated that the Intelligence Training Section is
     developing web-based training programs to be used in the fall of 2009.
     At the completion of each 14-week BIRS course, the Review
     Committee will reconvene to evaluate the BIRS curriculum, including
     student and trainer input.

     This recommendation can be closed when the DEA provides the OIG
     with a list of potential web-based training classes it is considering
     deploying, the timeline for establishing the web-based training and its
     implementation, and current actions being taken to establish the
     web-based training.

5.   Resolved. The DEA concurred with our recommendation to establish
     an adequate system to monitor the status of the security clearances of
     intelligence analysts. The DEA stated that the Office of Security
     Programs is researching a tracking system and will study the feasibility
     of implementing the system at the DEA in conjunction with the current
     Eagle Eye system.

     This recommendation can be closed when the DEA provides the OIG
     with documentation substantiating that an adequate system for
     tracking and monitoring security clearances for all intelligence analysts
     has been implemented.

6.   Resolved. The DEA concurred with our recommendation to ensure
     that all intelligence analysts have Top Secret clearances. The DEA
     stated that upon favorable adjudication of the requisite background, all
     intelligence analysts will be granted Top Secret clearances.

     This recommendation can be closed when the DEA provides the OIG
     with documentation that all intelligence analysts have current Top
     Secret clearances or that the paperwork has been submitted to begin
     the appropriate background investigation for a Top Secret clearance.

7.   Resolved. The DEA concurred with our recommendation to ensure
     that intelligence analysts undergo required security reinvestigations
     every 5 years. The DEA stated that the Personal Security Section
     received approval to hire seven personnel security specialists to
     backfill vacant positions and that these additional personnel will be
     assigned to address the reinvestigation program.

     This recommendation can be closed when the DEA provides the OIG
     with its plan (including implementation date and timeline) that
     describes how reinvestigations for Top Secret clearances will be
     accomplished in accordance with time specifications.



                                     74
                                                            APPENDIX VIII


8.   Resolved. The DEA concurred with our recommendation to ensure
     that the customer surveys recently incorporated into the intelligence
     reports are utilized to assess and evaluate the quality, usefulness, and
     effectiveness of each product. The DEA stated that it will analyze the
     evaluation forms from a broader perspective on a 6-month basis to
     determine if product quality, usefulness, or effectiveness requires
     changes or improvements. The DEA stated the first evaluation is due
     in June 2008.

     This recommendation can be closed when the DEA provides the OIG
     with a report analyzing the Reader Comment Cards completed by
     external report users. This report should contain a list of best
     practices and a plan to implement reasonable corrective actions to
     improve the timeliness and usability of the DEA’s reports.

9.   Resolved. The DEA concurred with our recommendation to develop a
     more efficient process for reviewing and transmitting Reports Officer
     cables, especially terrorist-related cables. The DEA stated that the
     Intelligence Division will issue a teletype amending the Reports Officer
     cable review and approval process. The teletype will mandate that
     Reports Officer cables be electronically forwarded to the Office of
     Enforcement Operations for review and to the originating office to
     obtain approval for dissemination. The DEA will require that approval
     or disapproval be provided to DEA headquarters within 5 working days.

     This recommendation can be closed when the DEA provides the OIG
     with a copy of the teletype amending the Reports Officer cables review
     and approval process.




                                     75
